<html>
<title> - CONVEYANCE OF LAND IN NEVADA; CONVEY LAND IN THE BEAVERHEAD-DEERLODGE FOREST, MT; EXCHANGE LAND IN IDAHO; FORT STANTON-SNOWY RIVER NATIONAL CAVE CONSERVATION AREA; AMEND THE PUBLIC LANDS CORPS ACT OF 1993; AND REVOKE LANDS IN CIBOLA NATIONAL WILDLIFE REFUGE, CA</title>
<body><pre>[Senate Hearing 109-157]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-157
 
 CONVEYANCE OF LAND IN NEVADA; CONVEY LAND IN THE BEAVERHEAD-DEERLODGE 
 FOREST, MT; EXCHANGE LAND IN IDAHO; FORT STANTON-SNOWY RIVER NATIONAL 
 CAVE CONSERVATION AREA; AMEND THE PUBLIC LANDS CORPS ACT OF 1993; AND 
          REVOKE LANDS IN CIBOLA NATIONAL WILDLIFE REFUGE, CA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 703                                S. 997

                           S. 1131                               S. 1170

                           S. 1238                               H.R. 1101


                                     

                               __________

                             JULY 20, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-053                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Benna, Lawrence E., Deputy Director, Operations, Bureau of Land 
  Management, Department of the Interior.........................    11
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     4
Boston, Dr. Penelope J., Ph.D., New Mexico Institute of Mining 
  and Technology, Socorro, NM....................................     8
Burns, Hon. Conrad, U.S. Senator From Montana....................     2
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     3
Ensign, Hon. John, U.S. Senator From Nevada......................     6
Holtrop, Joel, Deputy Chief, National Forest System, U.S. Forest 
  Service, Department of Agriculture.............................    21
Johnson, Keith, Controller, State of Idaho.......................    25

                                APPENDIX

Additional material submitted for the record.....................    31


 CONVEYANCE OF LAND IN NEVADA; CONVEY LAND IN THE BEAVERHEAD-DEERLODGE 
 FOREST, MT; EXCHANGE LAND IN IDAHO; FORT STANTON-SNOWY RIVER NATIONAL 
 CAVE CONSERVATION AREA; AMEND THE PUBLIC LANDS CORPS ACT OF 1993; AND 
          REVOKE LANDS IN CIBOLA NATIONAL WILDLIFE REFUGE, CA

                              ----------                              


                        WEDNESDAY, JULY 20, 2005

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Larry E. Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone, I would like to 
thank you all for attending this hearing of the Public Lands 
and Forests Subcommittee, the Committee on Energy and Natural 
Resources. First, let me welcome--in absentia for the moment--
Senator Domenici, who will be here to testify. The ranking 
member of the full committee, Senator Bingaman, is with us. I 
would also like to welcome Senator Ensign, who is soon to 
arrive. Senator Ensign is here to discuss his Las Vegas Motor 
Speedway Land Conveyance bill, S. 703. Welcome to Joel Holtrop, 
Deputy Chief of the National Forest System from the Forest 
Service, and Larry Benna, Deputy Director of the Bureau of Land 
Management. Thanks for coming to testify on these pieces of 
legislation today. Last, I would like to welcome our two 
outside witnesses, Dr. Penny Boston, from New Mexico, who is 
here to testify on the Fort Stanton-Snowy River Cave 
Conservation Act, S. 1170, and Keith Johnson, our State 
Controller from my State of Idaho, who is here to testify on my 
bill, S. 1131, the Idaho Land Enhancement Act. We will also be 
taking testimony on S. 997, the Montana Land Conveyance for a 
Historical Cemetery, S. 1238, an amendment by Senators 
Feinstein, Bingaman and Domenici to the Public Land Corps Act 
of 1993, and H.R. 1101, a bill to revoke a Public Land Order 
related to a boundary on the Cibola National Wildlife Refuge. 
We anticipate showing a video today of the Fort Stanton-Snowy 
River National Cave Conservation Act before we take testimony, 
and after, the committee chairman of the full committee, 
Senator Pete Domenici, and Ranking Member, Senator Bingaman, 
make their opening comments.
    I do want to comment on my legislation, S. 1238--the Idaho 
Land Enhancement Act. Most people know that I don't have a lot 
of patience for waste or inefficiency in government. When I see 
officials who are working to reduce waste or make a process 
more efficient, that does catch my attention. In this instance, 
I think the State and Federal officials are doing just that.
    In May 2001, the residents of Boise decided to tax 
themselves to fund efforts to secure open space in the Boise 
Foothills. The Idaho Land Enhancement Act would authorize the 
exchange of State lands in the Boise Foothills for Forest 
Service and Bureau of Land Management lands in Idaho's 
panhandle. Under this legislation, the people of Boise, the 
Boise area, get more open space; and the State and Federal 
agencies involved get a higher level of management efficiency 
in other parts of the State.
    The process has been very open and transparent from the 
very beginning. I said that this must proceed in this manner, 
with all parties interested being allowed to comment in an open 
public process. That has been accomplished in a most admirable 
way, and I appreciate the efforts of all of the parties 
involved.
    Additionally, the multi-agency group completed evaluations 
of timber values, minerals, cultural resources, water rights, 
legal access, wildlife, fisheries, vegetation, hydrology, 
wetlands, threatened and endangered species, and specific types 
of habitat. The evaluations show that no major environmental 
effect will occur as a result of the exchange. The Nature 
Conservancy have independently reviewed the data and compared 
it to their eco-regional planning efforts and concluded that 
the exchange has ``limited potential to impact biodiversity 
values'' and they support the exchange.
    The exchange is an example of how local, State, and Federal 
partners can come together to collaboratively develop an 
exchange in which both the public and the land are the ultimate 
beneficiaries.
    So, I want to thank all of those parties who have been 
involved in this. I will now turn to Senator Domenici and 
Senator Bingaman for their opening statements, and then to 
other members who have statements, prior to a viewing of the 
video.
    Senator Domenici.
    [The prepared statement of Senator Burns follows:]

   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana

    Mr. Chairman, thank you for holding this hearing on S. 997, the 
Montana Cemetery Act.
    The Elkhorn Cemetery in Jefferson County has been used as a 
cemetery since the 1860's. The cemetery is still used by families of 
the original homesteaders and miners.
    In the early 1900's, a survey was conducted to determine the 
Beaverhead-Deerlodge National Forest boundaries. Because of surveying 
errors and limited information, the Elkhorn Cemetery was included in 
the National Forest lands. However, it is clear the cemetery was in use 
prior to the designation of the National Forest.
    However, Forest Service direction opposes burials on National 
Forest lands, placing both the families and Forest Service in an 
awkward position.
    The Montana Cemetery Act conveys eight acres on the Beaverhead-
Deerlodge National Forest to Jefferson County, Montana for continued 
use as a cemetery.
    I understand the Forest Service is requesting consideration for the 
market value of the property and for the administrative costs 
associated with the conveyance. It should be noted Jefferson County has 
already paid $5000 for a survey of the property. Since the County has 
borne a good portion of the administrative costs, I feel this is 
sufficient payment for the conveyance of eight acres.
    I also am concerned the Forest Service feels the National 
Environmental Policy Act (NEPA) process applies to this land conveyance 
to ensure the historic and cultural values of the cemetery are 
maintained. I believe Jefferson County and the Montana State Historic 
Preservation Office can develop a plan that will ensure a reasonable 
level of protection for the cemetery. In addition, the ownership of the 
cemetery will revert to the Forest Service if the use of the land is 
changed.
    The legislation is important to the residents of Jefferson County 
who want to legally inter family members in the cemetery. The Jefferson 
County Commissioners and residents of Jefferson County are supportive 
of this legislation.
    I look forward to the Forest Service's testimony on this bill.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Thank you, Mr. Chairman. Both Senator 
Bingaman and I, as you know, are part of a conference on 
energy, and we very much appreciate your permitting us to go 
first on this agenda. I will be very brief.
    In my home State, we have a new and exciting natural wonder 
that was discovered near Fort Stanton, New Mexico. I've had the 
luxury of going out to the site and having the video presented 
to me in the presence of many of the volunteers who were part 
of the excavation and found this. This exploration has 
continued over the years in other areas, but in 2001 further 
exploration led to the discovery by BLM volunteers, many of 
whom I have met, of a more than 2 mile-long snow white 
continuous calcite formation, which we see here on the right 
picture. It is too bad that many more hundreds of people can't 
get down there, but for now the entryway is rather difficult, 
and it's hard to get through, and volunteers go through in 
pairs or in foursomes, and with new modern cameras have been 
able to take pictures and send them out.
    I was privileged to talk to the underground explorers by 
radio when I was at home, and they were having a marvelous time 
trying to explain the beauty of this. I'm certain that at some 
time, consistent with appropriate conservation, more people 
will be able to see it in person, but it never will be one 
that's open to thousands of people. But it is the world's 
largest formation of this type of calcite, and gives the 
scientific community many opportunities for exploration and for 
scientific evaluation. We don't know the full potential of that 
yet.
    I'm very grateful that my colleague, Senator Bingaman, has 
agreed to co-sponsor this, and I thank the people from New 
Mexico that are here; in particular, Dr. Penny Boston, who is a 
director of the Cave and Karst Studies Program at New Mexico 
Tech. Thank you very much.
    Senator Craig. Thank you, Senator Domenici.
    Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you, Mr. Chairman, I'm glad to be 
here also, and thank you for letting us speak at the start of 
this hearing. S. 1107, introduced by Senator Domenici and co-
sponsored by me, is one of the bills you're having testimony on 
today. This is legislation to designate a conservation system 
for the Fort Stanton-Snowy River National Cave Conservation 
System. This is very consistent with what we have found in 
other parts of New Mexico. Of course, Carlsbad Caverns has been 
known for a very long time, Lechuguilla Cave is extremely well 
recognized internationally now for its size and features, and 
this will be, in addition to that. We do have this National 
Cave and Karst Research Institute that Congress established 
back in 1998, and that, of course, gives us some ability to do 
additional research. I want to join Senator Domenici and, in 
particular, Dr. Penny Boston for her work on this effort, 
particularly at New Mexico Tech. I know she is the expert, and 
has done a lot of the research that has been done to date, and 
so I look forward to seeing this video, and understanding a 
little better what this find entails. I think it is very good 
news, and I strongly support the effort to provide appropriate 
protection, thank you.
    Senator Craig. Thank you very much, Senator Bingaman. So 
that we can hold this testimony on this specific issue 
together, we will show the video, and then we'll come to 
Senator Ensign. Your time allows that, John? It's a brief 
video. Thank you. And I would ask Larry Benna if he might do 
the narrative of this. And why don't you sit at the table and 
activate that mike, that would be great.
    [Video played.]
    Mr. Benna. What you're seeing here are some of the cavers 
going through a smaller passage that leads into the larger 
caverns of the cave. This particular area is about 900 feet 
long, and about 600 feet of it is as tight crawling as you see 
here. There's also about 200 feet of it that consists of 
vertical climbs, as well as crawling on your hands and knees.
    Senator Craig. I can understand why Senator Domenici didn't 
go down there, neither would I.
    [Laughter.]
    Mr. Benna. It's very tight quarters in many instances, it's 
clearly a safety issue here, so this is a concern about 
limiting access to other than specific cavers.
    What you're seeing here is the cavers are measuring the 
rate of air flow that is coming through the passages. You can 
see by the flag that is waving that the air flow is rather 
rapid. Air here is being measured at about 15 miles per hour, 
and they measures this consistently for several hours. The 
significant part of this is that the rate of air flow that 
rapid denotes that the size of the passages are probably a lot 
larger than what they've discovered so far, so the extent of 
the cave is quite a bit more.
    Senator Bingaman. What is the source of the air that is 
coming out of there? I mean, why do you have that air 
constantly flowing out of there? Or is that not the right 
question?
    Mr. Benna. The Doctor can answer that.
    Senator Bingaman. I'm sorry, I was jumping ahead, thanks.
    Senator Craig. Dr. Boston, in her testimony, will get to 
it.
    Mr. Benna. What you're seeing here are, there's a lot of 
different formations within the cave, these are starlight 
formations, they have been named Starry Nights, what they 
actually are, are gypsum that has come through the bedrock of 
the caves themselves.
    Senator Craig. Are any of these formations unique to this 
cave, not found in other cases?
    Mr. Benna. Yes, I believe they are. These are similar-type 
formations, you can get a better idea of them on the roof of 
one of the caves. This gives you an idea of some of the larger 
parts of the caves. Here you can see the clothing that the 
cavers are wearing. When they get into the cave, they bring in 
new clothing in plastic bags. That's to make sure there's no 
outside contamination that comes into the cave. Originally, I 
understand they were using some sort of an overall suit, but 
because of the sharpness and the abrasiveness of the 
formations, they were getting torn, so they found that just a 
set of clean clothes accomplished the same objective.
    What you see here is a close up of one of the calcite 
formations, and again, this gives you an idea of how rough and 
abrasive the actual surface is.
    Here's another photo of the cavers actually walking along 
the calcite formations on the floor of the cave, and its river-
like appearance is what gives it the name Snowy River Caves. 
Just for your information, I'm told the combined caving 
experience of these five cavers is about 100 years.
    And this stretch of the cave actually extends for more than 
2 miles. This is a close up of what's called ``mound shaped 
clouds of calcite'' and this, I'm told, is a very uncommon 
formation, and it is really not known how this formation was 
formed. Extremely unique, high scientific value, a very 
significant find.
    Thank you.
    Senator Craig. Larry, thank you very much, that was 
fascinating.
    The Chairman. Senator Bingaman, you asked a question about 
the volunteers in this area, always looking for caves, and how 
they get actually excavated down quite a bit, and quit, and 
then some new cavers, the ones that found it, got down in that 
hole and started digging a little bit more. And out came this 
constant flow of air, which meant there was a big cave under 
there, and they decided then to proceed. They got to the edge 
of something, and down about 8 or 9 feet was something, and 
they climbed down that and they found this cave which is right 
in the midst of everything. These volunteers, who worked there 
for years, and the lead man came upon it. He was there when I 
was there, talking about that experience. It is the wind coming 
out that gives you the idea that underground there is some 
activity, there is a cave that has some in and out flow, but 
somebody can explain that more technically; but that's what I 
understand.
    Thank you, Mr. Chairman.
    Senator Craig. To both of you, thank you very much.
    Now we will turn to our colleague, John Ensign, for 
testimony in relation to the Las Vegas Speedway Bill.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman, I appreciate this 
opportunity to come before you and testify on this piece of 
legislation. If I could just ask that my full statement be made 
part of the record, and then I can summarize it as quickly as 
possible.
    Senator Craig. Without objection.
    Senator Ensign. The bill would authorize the sale, at fair 
market value, of 115 acres next to the Las Vegas Motor Speedway 
for use as a parking lot and no other use. If it was to be used 
for anything else, it would be reverted back to the taxpayers. 
The reason for this is obviously you don't want--and this is 
the reason that Las Vegas Motor Speedway is telling us they 
need it for parking--we have huge events now, NASCAR events, 
that keeps growing and growing and growing and they need this 
land for parking. We didn't want somebody just doing this and 
speculating and flipping the land and making a huge profit off 
of the Government, some may ask, because I'm the one who came 
up with the auction process in the first place in southern 
Nevada for BLM lands, why would we auction this land? Well, you 
can see, if it's just being used for a parking lot, you put it 
up for auction, somebody out there could basically outbid the 
people at the Speedway and then hold them hostage for this 
piece of property, and the Las Vegas Motor Speedway has been 
fantastic for the economy of southern Nevada, and we're not 
trying to get them for anything but fair market value, and we 
think this is the right way to go, to do a directed sale at a 
fair market value price.
    The administration has put forward a proposal to--instead 
of the proceeds being used in the way we've talked about them--
they've put forward a proposal that they would want money going 
into the treasury, that should scare every Western Senator, 
because no other Western State is treated that way by the BLM, 
it's either auctioned, or any other way. We know we at least 
have the BACA process where the money stays in that State to 
buy environmentally sensitive lands in that State, and we're 
certainly willing to look at that. We've proposed a similar 
modeling for the money we have with the Southern Nevada Public 
Lands Management Act, because that's worked so well for our 
State for some time.
    Just to wrap things up, I think that it's obviously a 
simple piece of legislation, that's above-board and at a fair 
market value. Good appraisals can be done on this, and I think 
that it could be done to where the benefits go to the general 
public, because the money would be used for general public 
purposes. The southern Nevada economy is benefited because 
you've provided additional parking for the Las Vegas Motor 
Speedway.
    So, I'd be more than happy to answer any questions that you 
may have.
    [The prepared statement of Senator Ensign follows:]

         Prepared Statement of Hon. John Ensign, U.S. Senator 
                         From Nevada, on S. 703

    Mr. Chairman, Senator Wyden, thank you very much for holding a 
hearing today on S. 703, a bill to sell Bureau of Land Management Land 
near Las Vegas, Nevada, to the Las Vegas Motor Speedway.
    This bill is straightforward. S. 703 would require the Secretary of 
the Interior to sale approximately 110 acres of federal land to the Las 
Vegas Motor Speedway for use as a parking lot. The land is adjacent to 
the existing Speedway facility. S. 703 is supported by the entire 
Nevada Congressional Delegation and all local governments in southern 
Nevada.
    The land is critically needed to provide outdoor parking to 
accommodate the increasing number of visitors who attend NASCAR events 
at this premier facility near Las Vegas. The last NASCAR event in March 
2005 drew 156,000 participants in an estimated 30,000 vehicles. Due to 
the popularity of these events, the Speedway is adding an additional 
14,000 seats. The addition of parking is necessary to ensure the long-
term viability of the facility which is inextricably linked to Las 
Vegas' standing as a multi-faceted entertainment destination for 
millions of tourists from around the world. NASCAR events are a major 
boost to Las Vegas' tourist-based economy. Typically, all hotel rooms 
in the region are fully booked when the Speedway hosts major events.
    S. 703 specifies that the BLM land must be sold to the Speedway at 
Fair Market Value. The land may only be used as a parking lot so the 
taxpayers' interest is protected--the land cannot be converted or sold 
for another use. Proceeds would be disbursed in accordance with the 
Southern Nevada Public Land Management Act of 1998 (SNPLMA). The land 
is not encumbered by any other existing rights.
    I am certain the Administration will advocate an auction, as 
opposed to a direct sale, of the land. An auction will not work in this 
particular instance. The land identified for sale to the Speedway in S. 
703 is outside the disposal boundary established by the Southern Nevada 
Public Land Management Act of 1998 (SNPLMA). SNPLMA established a 
boundary around the Las Vegas Valley for BLM land disposal with the 
understanding that the BLM land inside the boundary was suitable for 
development (either residential or commercial). A directed sale at Fair 
Market Value ensures that the land will only be used as a parking lot--
an auction would allow real estate speculators to purchase and hold the 
land for a purpose that is inconsistent with local planning (which is 
not permitted by SNPLMA) and does not solve the parking problem at the 
Speedway.
    As the author of the SNPLMA, I have not supported direct sales of 
land within the disposal boundary because I believe competition brings 
the highest price--and return to taxpayers--in a region where land is 
valuable and expensive. However, there will inevitably be a few 
instances where a direct sale is warranted. The economic benefit 
derived from the Speedway events is important to all citizens in 
southern Nevada.
    I am willing to work with the Committee to address any concerns you 
might have with this measure. S. 703 without question has some 
ambitious timelines for the required appraisal and completion of other 
administrative requirements. While this bill proposes a straightforward 
sale, I want the sale to be carried out properly.
    Thank you for holding this hearing and I look forward to working 
with you to move this bill forward expeditiously.

    Senator Craig. Senator, any questions?
    Senator Bingaman. I have none.
    Senator Craig. John, thank you very much for your 
testimony. I know this committee over the years in working with 
you and Senator Reid has been as sensitive as it could be to 
the land-locked character, if you will, of your State, that is 
90 plus percent public, if I remember correctly, isn't that 
correct? We both struggle with that situation in trying to 
allocate lands and growing in populated areas to public use or 
to other uses that are now public, State and in almost all 
instances, Federal land, so we thank you for bringing this 
before us.
    Senator Ensign. And I thank you, and I just wanted to 
comment, by the way, on that video. That was really a neat, 
deep, geologic repository, I don't know what for, but just kind 
of a little experience with those--just a little joke there, 
Mr. Chairman.
    [Laughter.]
    Senator Craig. Unlike Yucca Mountain, that has no air 
flow----
    Senator Ensign. I just thought that was such a nice, 
natural one, I could see a lot of uses for it.
    Senator Craig. John, you and I both know growing up that 
walking past an anthill, it's often best to leave it unkicked.
    [Laughter.]
    Senator Craig. Thank you very much. For the sake of Senator 
Bingaman being here in relation to the New Mexico bill, we 
would ask Dr. Penelope Boston, director of Cave and Karst 
Studies Program, Department of Earth and Environmental 
Sciences, New Mexico Tech, and Larry Benna, Deputy Director of 
Bureau of Land Management, Department of the Interior, to come 
forward.
    And I'll tell you what, Larry, we will ask you to do the 
Cave Bill first, and we will also ask Dr. Boston to do that, on 
behalf of our ranking member here, and then we will get on with 
the balance of the bills, and our other witnesses today. So, 
Dr. Boston, welcome before the Public Lands and Forests 
Subcommittee. Please proceed.

    STATEMENT OF DR. PENELOPE J. BOSTON, PH.D., NEW MEXICO 
        INSTITUTE OF MINING AND TECHNOLOGY, SOCORRO, NM

    Dr. Boston. Thank you very much, I'm very happy to be here 
today to talk about a really spectacular find. You've had the 
opportunity to see it briefly, I just want to summarize a few 
of the main points that make this a very special find, and well 
worthy of this new class of conservation area within the BLM.
    It's a world-class find, there's nothing else like it. Not 
only is it a lot of beautiful, sparkling white calcite, but it 
has genuine--and I think--unique scientific value in many 
different areas. Because this is very long, of course, that is 
what caught our attention initially, but the other aspect is 
it's actually a quite deep and thick deposit, we have very 
little data about it, but one of the things we do know is that 
from age dating right at the very top of this formation, that 
is a very young formation at the top, it is between 600 and 
1,000 years old.
    We suspect that the history of this formation probably 
captures geochemical signals that can illuminate, perhaps, the 
last 10,000 years of climate change within the area. Recording 
the hydrology of the Sacramento Mountains, and of course the 
hydrology of the mountain and desert regions are of extreme 
importance to the entire Western part of the United States. So, 
it's a unique opportunity to find continuously formed 
structures that can capture those record systems.
    My own area of specialization is geo-microbiology, and I 
was on the initial science assessment into the cave. I was 
surprised and pleased to see black crust all over the walls, 
and to me, black crust means that organisms, microorganisms, 
have been at work there. The black crust, lime cavity within 
which Snowy River exists, and clearly pre-date it. We took 
samples of it, and tried to grow organism from it, and I was 
expecting to, perhaps, get lucky and hit a few and we turned 
out to get hundreds and probably thousands of new species, 
microorganisms that are novel that is unknown to science, so 
this is a very active material, these kinds of organisms we 
study in many of the caves in New Mexico and elsewhere in the 
United States and abroad, and they have great significance in 
terms of being geological agents. Many of them actually break 
down the bedrock, so they're essentially rock-eaters, and other 
ones actually precipitate minerals--manganese and iron, gold, 
uranium, copper--and it now becomes clear to our science that 
these organisms play a major role, perhaps, in the deposits of 
low temperature economic minerals, and so they have many other 
ramifications.
    The final point within the geo-microbiological realm is 
that there are types of bacteria known as actinomycete and 
streptomycetes that abound in Snowy River, and, in fact, in 
Fort Stanton Cave in general, and these are the organism groups 
from which we get all of our antibiotics, and so the 
biodiversity potential of this cave is very great.
    The other point about it that is significant is that it was 
really written off as a ``trash cave.'' As you probably know, 
caves are uniquely subject to vandalism, being used as trash 
pits and things of that sort, so this was a very badly abused 
cave until a few decades ago when volunteers, working with the 
BLM, cleaned it up and began to protect it, put in gates, put 
in a fence around it, so I think it is an illustration of a 
great success story.
    With regard to the piece of legislation at hand, caves and 
karst terrains present unique management challenges to the land 
agencies, and so therefore this is an opportunity to protect 
the surface and subsurface region that directly affects this 
cave.
    Caves are unique insofar as not only the cave itself is 
critical to itself, but also it is at the bottom of a catchment 
area, and so therefore anything that comes into that catchment 
drainage area will find its way to the cave and karst aquifers 
and karst terrain is highly fractured, and so material that you 
put in at the top goes right to the basement level, very, very 
quickly with no filtration. The extent of the cave system is 
currently unknown, but of course as we've seen with Jewel Cave 
in South Dakota, the size of the cave and the boundaries put 
around it need to grow as the cave is further explored. The 
tremendous amount of airflow coming out of this cave mentioned 
before implies that there's a large cavity underground, that 
there's much more of this cave yet to be explored, and so 
therefore the feature of having a somewhat elastic boundary is 
to allow for further exploration is critical. As it goes to 
features, the surface protection as well as the subsurface 
protection, and a certain degree of flexibility in the area of 
the catchment basin we can protect are critical features of 
this legislation. So, I strongly support it, thanks.
    [The prepared statement of Dr. Boston follows:]

    Prepared Statement of Dr. Penelope J. Boston, Ph.D., New Mexico 
            Institute of Mining and Technology, Socorro, NM

                WHY CARE ABOUT CAVES AND KARAT TERRAIN?

    Human beings live primarily on Earth's surface and are intimately 
familiar with much of the biology, geology, and other natural features 
that make up what we think of as our planet. But, beneath our feet in 
many parts of the world is an entirely unseen realm of great beauty, 
fragile biology, exquisite minerals, and a window inside the very skin 
of Earth. This realm is composed of Earth's many caves, places that 
differ so much from the overlying surface environment that people often 
feel that they might as well be on another planet.
    For those whose only experience of caves is an occasional childhood 
trip to a developed tourist cavern, the enormous diversity of Earth's 
subsurface comes as a surprise. Caves can be tiny or immense and 
labyrinthine. They can be filled with water, filled with air or other 
gases, or even have major rivers and sinking streams running through 
them. Although most caves are formed in soluble rocks like limestone 
and dolomite, every major rock type can be acted on by cave-forming 
geological and hydrological processes. Some can be entered by natural 
openings while others are accidentally discovered during construction 
or road-building activities. There are jewel-like caverns in marble in 
California, sinkholes and caverns thickly dotting the rolling green 
landscape of the Cumberland Plateau and beyond, dramatic vertical 
systems in some of our jagged dolomite mountain ranges, tubes formed 
from molten lava on the flanks of volcanoes in New Mexico and the 
Pacific Northwest, rock shelters eroded into sandstone sea cliffs along 
many of our coasts, granite fissure caves in the New England states and 
many more varieties.
    The term ``karst'' is a word that refers to landforms created by 
dissolving soluble rocks. Caves are one of the most characteristic 
features that occur typically in karst terrains. Besides caves, karst 
is frequently characterized by sinkholes that are potential geohazards 
to people and their structures but also can be water resources for 
wildlife. Aquifers that occur in karst, i.e., in highly fractured 
limestone or dolomite rock, are very different from ordinary sand 
aquifers. In the latter, water percolating from above takes time to 
move through the pores of the aquifer down to the water table. This 
relatively slow process through very small rock pores enables extensive 
filtration of the water to occur, thus helping to purify the water. In 
the case of karst aquifers, the water has a very rapid path through the 
many fractures in this type of rock, thus, if a pollutant enters a 
karst system at the surface, it practically has a super highway trip 
down to the water table. Little filtration can occur, thus making karst 
aquifers very susceptible to pollution. Karst terrain and caves impose 
extra and highly specialized management burdens on our land management 
agencies charged with their protection.
    Despite the wonders of the underground world, caves and karst 
landforms are part of perhaps the least protected of all of our 
wilderness treasures. Because we don't normally see them, out of sight 
is indeed out of mind. They have perennially been used as trash pits 
for all types of waste including even hazardous chemicals spilled or 
even purposely introduced toxic substances. The introduction of such 
foreign material into a delicately balanced, low organic nutrient 
system like a cave is tremendously detrimental to both the geology and 
especially the living organisms from microbes to delicate transparent 
cave fish and salamanders that live within them. Caves are regularly 
vandalized, their decorations removed for illicit sale or simply 
thoughtlessly smashed, the precious archaeological and paleontological 
remains in many caves are looted or destroyed. With the advent of the 
Internet and GPS technology, cave locations kept secret for decades 
have now become public knowledge attracting additional vandalism and 
looting.
    Over the past few decades, the recreational caving community, cave 
scientists (speleologists), and conservationists have made major gains 
in raising the awareness of the public about the fragile nature of cave 
systems and the precious geological and biological resources that are 
housed within them. Many of these individuals, local caving groups 
(known as ``grottoes''), and major organizations like the National 
Speleological Society, the American Cave Conservation Association, 
Karst Waters Institute, and others have worked closely with BLM, U.S. 
Forest Service, and NPS personnel to help in the management, scientific 
study, and conservation of the Underground. Indeed, caver volunteer 
hours are being documented in some areas and amount to literally tens 
of thousands of person-hours, often of highly skilled technically and 
scientifically trained people. The caves of the United States have 
benefited enormously from this major volunteer effort. However, 
volunteer efforts alone can go only so far. We must provide our land 
management agencies like the BLM with the tools they need to enforce 
protection of our underground wilderness.

                      WHY IS SNOWY RIVER SPECIAL?

    The amazing sparkling calcite ``frozen river'' of Snowy River in 
Ft. Stanton Cave, NM is unique amongst known mineral formations of 
known caves in the world. This brilliantly white crystalline formation 
has been traced for over 2 miles in entirely pristine passage in 
otherwise well-known Ft. Stanton Cave. This cave has been visited since 
before historical times by indigenous peoples, and used extensively 
since colonization by European settlers. A few decades ago, Ft. Stanton 
was considered virtually a ``trash cave'' because of extensive 
vandalism and other abuse of its then-known passages. The dedicated 
efforts of a handful of volunteers and BLM personnel over the past 
number of years has restored this cave to its rightful place as a major 
cave resource managed by the Roswell BLM office under the State of New 
Mexico regional BLM. Cave explorers have now presented us with a 
splendid feature of unparalleled magnificence, a river of glittering 
crystals. Thus, the efforts to save a thoughtlessly trashed cave have 
rewarded us many fold.
    Besides the scenic and scientific importance of the Snowy River 
formation itself, this passage contains other scientific finds of 
significance. My own research concerns the microorganisms that inhabit 
caves and contribute to the breakdown of bedrock and the precipitation 
of many biogenic minerals. Such organisms, though microscopically tiny, 
can act as major geological agents over time. Additionally, they are 
primarily novel species unknown to science. Each cave that we are 
studying yields up new sets of hundreds to thousands of new organisms. 
Such untapped biological wealth is ripe for exploration seeking sources 
of new pharmaceuticals, industrial agents like novel enzymes that can 
act in extreme chemical conditions, and insight into the microbial role 
in the very production of economically significant low-temperature ores 
including uranium, gold, copper, manganese, and many other minerals. As 
an example, Actinomycete and Streptomycete organisms are two of the 
major groups that produce the antibiotics upon which so much of modern 
medicine depends. These organisms abound in these environments and 
Snowy River is no exception. Black coatings full of manganese-oxidizing 
bacteria occur on much of the wall rock in the Snowy River Passage. 
Actinomycete colonies sparkle as shiny white and yellow dots on many of 
the walls throughout the cave.
    Other scientists are interested in many other facets of Snowy 
River. Plans are afoot to date the age of the formation and to study 
the hydrological conditions that led to its occurrence. Geochemistry 
and isotopic data from both the sparkling calcite and other materials 
in the cave are of great interest. The climate history over the past 
few thousand years may be hidden in the chemistry and mineralogy of the 
River and its surroundings.

                               CONCLUSION

    Today is the 36th anniversary of our first human landing on the 
moon by Buzz Aldrin and Neil Armstrong. That frontier still beckons us, 
but so too should the unexplored realms here on Earth. The cave 
frontier offers much promise for science, as a possible provider of 
biological and geological resources, and places of beauty to feed the 
human spirit. It is our duty to protect it as best we can.

    Senator Craig. Dr. Boston, thank you very much.
    Larry.

       STATEMENT OF LAWRENCE E. BENNA, DEPUTY DIRECTOR, 
   OPERATIONS, BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Benna. Thank you, Mr. Chairman and members of the 
committee, I want to thank you for the opportunity to testify 
today on a number of bills relating to the BLM.
    As you suggested, Mr. Chairman, I will limit my first 
remarks to the Fort Stanton-Snowy River National Cave.
    Senator Craig. If you would do that, Larry, we've got a 
vote that has just started. Senator Bingaman may have questions 
on your testimony singular to the cave. We will then break 
briefly and I'll go vote, return, and then proceed with the 
balance of our testimony. Please proceed.
    Mr. Benna. I'd be happy to do that, Mr. Chairman. I 
appreciate the opportunity to testify on S. 1170, the Fort 
Stanton-Snowy River National Cave Conservation Area Act, which 
will protect the special scientific values of this new 
discovery. I hope the video we showed provided members of the 
committee with a perspective on both the scientific and the 
significance of the resource that has been discovered here. I 
do have some additional pictures that are available for members 
to continue to look at.
    The legislation before the committee today would create the 
first conservation area dedicated to protecting cave resources. 
We strongly support the goals of the legislation, and would 
like the opportunity to work with Senators Domenici and 
Bingaman and the committee staff to modify S. 1170 to improve 
management of the area and to offer a number of technical 
refinements to the bill.
    I think of significance, one of those refinements, as Dr. 
Boston has indicated, is we do believe that it would be 
important to include surface acres that are expected to have 
cave areas under them to ensure that we have appropriate 
protection for the cave resource. Each of the National 
Conservation Areas, or NCAs, as they're called, designated by 
Congress and managed by the BLM is unique, however for the most 
part they all do address certain critical elements, and these 
include mining and mineral leasing, and land law withdrawals, 
limits on off-highway vehicle use, and language which charges 
the Secretary to allow only those uses that further those 
purposes for which the conservation area is established. 
Furthermore, NCA proposals do not diminish the protections that 
currently apply to the lands. The Fort Stanton-Snowy River NCA 
proposal largely honors this spirit, and we would like the 
opportunity to work with the sponsors to further develop 
appropriate protections.
    The Fort Stanton-Snowy River Cave Complex is important both 
scientifically and educationally, we look forward to working 
cooperatively both with the Congress and our many partners to 
see the vision for the caves becomes a reality. Thank you.
    Senator Craig. Director Benna, thank you very much, let me 
turn to my colleague, Senator Bingaman, for any questions he 
might have.
    Senator Bingaman. Thank you very much, Mr. Chairman, thank 
you both for being here and congratulations, Dr. Boston, on 
this find. You've both made the point that in order to 
adequately protect the cave, we need to protect the surface, 
and we need to protect as much surface as is necessary as the 
cave continues to be explored, and the size of it determined, 
and I certainly agree with that, and we need to make those 
changes in the legislation, as necessary.
    Let me just ask Dr. Boston, why is the air coming out?
    Dr. Boston. Well, it's a complicated answer, but I'll make 
it as simple as I can, we have several factors at work.
    One is, of course, in a ventilated cave, you've got air 
masses of different temperatures, and the colder the air mass, 
the denser it is, and so they tend to flow in down along the 
passage, which then forces warm air out, and so that is one 
type of circulation. But even in closed passages, like Snowy 
River is largely closed, a recent study that we just did 
modeling the physics of Carlsbad Taverns shows that even just 
with the geothermal gradient, the heat coming from earth's 
interior below, one sets up large convection cells within a 
cave, and so the fact that there's a lot of air coming out of 
that passage is probably a result of these internally 
generated, thermally driven convection cells, and the speed of 
the wind is roughly proportional to the size of the cavity 
volume that you have, so whenever you're a caver and you feel 
strong wind flow, you're very excited because you anticipate 
much more cavity below than what you can see.
    Senator Bingaman. That's very good. I appreciate that. I 
just note for the chairman's notice here that we need to get 
Senator Alexander informed that this is an opportunity to 
locate a wind turbine.
    [Laughter.]
    Senator Bingaman. He's a strong proponent of wind turbines 
on our committee.
    Senator Craig. Except the blades won't fit in the cabin.
    Senator Bingaman. Make it be up at the surface to take 
advantage of the air flow.
    Thank you very much, I do need to excuse myself, but thank 
you very much.
    Senator Craig. Dr. Boston, let me ask this question of you 
in relation to the air--is it then a circulation within the 
cavity?
    Dr. Boston. Yes.
    Senator Craig. Or is there air being pulled in from the 
surface?
    Dr. Boston. It's probably a component of both. The Snowy 
River passage is being discussed as a separate cave, but 
actually it is a part of this large cave system, of which Fort 
Stanton is the historically known part. There are undoubtedly 
other passages, and so there are connections to the surface, 
although they're very restricted in size, so clearly both 
things are operating. There is external barometric pressure 
changes, of course, weather systems outside that help to affect 
what goes in the cave, but then there's a lot of internally 
generated action, and perhaps a lot of what goes on in terms of 
producing a mineral deposit as unique as Snowy River itself. 
The calcite depends upon what we call the micro-meteorological 
conditions within the cave, of which this airflow is an 
example.
    Senator Craig. I understand that at the point, as far as 
you've found, you've found a water flow?
    Dr. Boston. Yes, there is some water, there is residual 
water, and we're testing it for isotopic signatures to try 
determine how old it is.
    Senator Craig. And then the cave goes beyond that?
    Dr. Boston. Yes, and it's very tiny. So even our smaller 
cavers are not small enough to try to get beyond there. But we 
believe that the passage probably opens out back into a large 
passage, perhaps another half a kilometer on. So we've only 
just begun to map the extent of this structure.
    Senator Craig. This particular photograph that's on the 
easel now, can I assume that at the upper line, that was a 
water level at one time?
    Dr. Boston. Yes, we call it Snowy River now, because it 
looks like a snow-laden river, but it actually was a river, it 
was an underground river, probably at the end of the 
Pleistocene, which was the last Ice Age, entering which we were 
in a much wetter climate regime in the Western States, and 
gradually over time, as the climate dried up and hydrology 
changes, there was less and less water flowing through the 
system and it essentially froze, in the mineral sense, but this 
is a large underground river conduit, and you're seeing the 
high water mark, as you suspected.
    Senator Craig. And because it's at the bottom of a 
catchment basin, therefore it caught all of the mineralization 
that effectively moved in the water as it moved through the 
system?
    Dr. Boston. Yes, this is a limestone system, so the 
groundwater becomes super-charged with the calcium carbonate in 
the water.
    Senator Craig. Well, thank you both very much. Larry, if 
you will stay in place, I'm going to recess the committee 
briefly, run and vote, we'll be back, we'll take the balance of 
your testimony and that of the U.S. Forest Service, and then, 
of course, we'll have Keith Johnson before the committee also. 
With that, the committee will stand in recess.
    [Recess.]
    Senator Craig. The subcommittee will reconvene. We already 
have Larry Benna before us. Will Joel Holtrop, Deputy Chief, 
National Forest System, join us? Thank you both.
    Larry, we'll let you continue to give testimony on the 
balance of the legislation that pertains to the Bureau of Land 
Management and then we'll turn to Joel for his testimony. Thank 
you.
    Mr. Benna. Thank you, Mr. Chairman. Again, I would like to 
reiterate that I would like to have the entirety of my written 
statements entered into the record.
    Senator Craig. Without objection, it will be.
    Mr. Benna. Concerning S. 1131, the Idaho Land Enhancement 
Act, this Act authorizes the BLM and the U.S. Forest Service to 
move forward with an exchange which would secure Federal open 
space for residents of Boise and Ada Country, and in exchange, 
conveyance of Federal timbered lands to the State of Idaho, 
will provide the State with more long-term revenue than could 
be derived from its lands in the Boise foothills. The exchange 
authorized by S. 1131 is a milestone in a 30 year effort of 
conservation in the Boise foothills. The Department supports 
enactment of S. 1131.
    S. 1131 requires that Federal land and the land to be 
exchanged in the bill to be of equal value, and if the values 
are not equal, the bill authorizes the equalization of value by 
cash payment to the United States or the State of Idaho, as 
appropriate. We will work with the committee on the technical 
matter described in our testimony.
    Concerning S. 703, the Las Vegas Motor Speedway Land 
Transfer Act, the Department supports the goal of S. 703, but 
again, would like an opportunity to work with the sponsors of 
the bill and the committee to resolve some concerns with the 
bill.
    The bill would convey by direct sale, approximately 113 
acres of public lands managed by the BLM in Clark County, 
Nevada, to the Nevada Speedway. The lands would be used as a 
parking lot to alleviate parking congestion at the Las Vegas 
Motor Speedway, and are located directly adjacent to the land 
currently owned by Nevada Speedway. We would like the 
opportunity to work with the sponsors and the committee on a 
number of amendments providing for a competitive bid to ensure 
a fair return to the public, the handling of the receipts from 
the sale of the land, and to resolve some additional technical 
issues.
    Concerning H.R. 1101, the Cibola National Wildlife Refuge 
modifications, again, we support H.R. 1101, which would revoke 
a portion of Public Land Order 3442, dated August 21, 1964. 
This Public Land Order withdrew approximately 16,600 acres of 
public domain lands along the Colorado River in California and 
Arizona for the Cibola National Wildlife Refuge. The withdrawal 
eventually included a small area of approximately 140 acres in 
Imperial County at the southern boundary of the California 
portion of the refuge. Similar bills passed the House and 
Senate in the 108th Congress, but were not enacted. The 
inclusion of these 140 acres in Public Land Order 3442 was in 
error, and we believed the most equitable solution was the 
removal of the lands from the Refuge. There are no listed 
species inhabiting the 140 acres, and the area in question has, 
at best, marginal wildlife habitat. Removal of the 140 acres of 
land from the refuge would free up the area necessary for the 
continuation of the recreational concession, while still 
affording more than adequate protection.
    In conclusion, thank you for the opportunity to testify on 
these bills. We look forward to working with the committee to 
resolve the issues discussed above. I'll be happy to try and 
answer any questions.
    [The prepared statements of Mr. Benna and the Park Service 
follow:]

 Prepared Statement of Lawrence E. Benna, Deputy Director, Operations, 
                 Bureau of Land Management, on S. 1170

    Thank you for the opportunity to testify in support of S. 1170, the 
Fort Stanton-Snowy River National Cave Conservation Area Act. This new 
discovery is both exciting and awe-inspiring. Our responsibility, as 
emphasized in the legislation, is to protect the special scientific 
values of this new discovery. As Senator Domenici stated upon 
introduction of his legislation, this new discovery ``can only be 
described as magnificent.'' We agree completely.

                               BACKGROUND

    The first documented exploration of the Fort Stanton Cave in south 
central New Mexico was in the mid-19th century, although there is 
evidence that native peoples previously explored its environs. This 
cave system has been extensively explored and is opened, on a permitted 
basis, to the public. Scout troops, amateur cavers (cave explorers) and 
the general public have explored this cave for years. Also, for many 
years volunteer groups of scientists, cavers and other professionals 
working in conjunction with the Bureau of Land Management (BLM) have 
been searching the Fort Stanton Cave system for additional passages 
that would expand the known cave system. In 2001, they confirmed a new 
passage into a previously unknown expansion of the cave system; public 
disclosure was delayed until just two months ago in order to ensure 
protection of the unique cave ecosystem. This initial discovery was 
spearheaded by BLM volunteers John Corcoran, Lloyd Swartz, John Mclean, 
Don Becker, and Andrew Grieco.
    Following the discovery, a careful, systematic and scientific 
process of exploration of the expanded cave system began. Cavers have 
their own protocols to assure documented and scientific exploration of 
virgin passages. The first rule is to do no harm and proceed with 
caution. On discovery of a new extraordinary expansion of the cave 
system complex, while human instinct would compel us to charge forward, 
for cavers the imperative is to stop. Caves are fragile ecosystems and 
their wonders can be easily and unintentionally destroyed. Fighting 
against human instinct, they stopped and they studied before they 
proceeded. The rewards they have reaped have been numerous.
    As they began their systematic and scientific search of the cave, 
they were careful to keep all contact with the non-cave world at bay. 
Entering the Snowy River Cave complex involves a 600-yard crawl through 
spaces no larger than 10 inches high. Upon arrival, all dirty clothes 
are changed and clean jumpsuits and shoes are then worn. No outside 
substances are brought into the cave and airflow is restricted so as 
not to contaminate or depressurize the cave environment.
    Exploration of the Snowy River complex will be a slow and 
thoughtful process. The complex includes ``Snowy River'' of calcium 
carbonate (calcite) that runs at least two miles through the base of 
the cave. To our knowledge, this is a unique phenomenon probably caused 
by an ancient slow moving river which over centuries dissolved the 
calcite from the surrounding stone and re-deposited it as a snowy 
carpet down the length of the cave.
    We are making additional exceptional discoveries throughout the 
cave. The BLM is partnering with the caving community, scientific 
community, and local universities to ensure that the cave's mysteries 
and resources are properly treated, studied and analyzed. Dr. Penny 
Boston, the Director of the Cave and Karst Studies program at New 
Mexico Tech indicates that 16 organisms have been isolated to date from 
the cave that are unique and may exist nowhere else in the world. These 
organisms appear to survive by eating rock. This discovery lends itself 
to possible practical applications in the field of pharmaceuticals.
    The BLM is committed to continuing these and other partnerships to 
explore fully the Snowy River Cave system. To date, over two miles of 
the system has been mapped. The full extent of the system has not been 
determined, but the scientists and cavers tell us that they expect many 
more miles of cave passages are left to be explored. In addition, there 
are also numerous other caves within the Fort Stanton area which 
contain significant cultural resources now under study.

                                S. 1170

    The legislation before the Committee today would create the first 
conservation area dedicated to protecting cave resources. Its goal is 
to ``secure, protect, and conserve'' the Fort Stanton-Snowy River cave 
system. We strongly support those goals and the legislation to 
implement them. We would like the opportunity to work with Senators 
Domenici and Bingaman and the Committee staff to modify S. 1170 to 
improve management of the area to offer a number of technical 
refinements of the bill.
    Each of the National Conservation Areas (NCAs) designated by 
Congress and managed by the BLM is unique. However, for the most part 
they have certain critical elements, these include: public land, 
mining, and mineral leasing law withdrawal, OHV use limitations, and 
language which charges the Secretary to allow only those uses that 
further the purposes for which the NCA is established. Furthermore, NCA 
proposals do not diminish the protections that currently apply to the 
lands. The Fort Stanton-Snowy River NCA proposal largely honors this 
spirit and we would like the opportunity to work with the sponsors to 
further develop appropriate protections.
    This NCA proposal is unique because of the unusual subterranean 
nature of the lands to be protected. Because the area is located within 
the old Fort Stanton military reservation (withdrawal revoked in 1956) 
the BLM already has some protections in place. It lies within both the 
Fort Stanton Area of Critical Environmental Concern (ACEC) and the 
24,000 acre Fort Stanton Recreation Area. The current uses of the area 
which are largely recreational are compatible with the protections 
envisioned by the legislation.
    At the same time, the world class nature of this discovery demands 
further protections as noted in S. 1170. We would like to work with the 
Committee to further clarify those protections and the area to be 
covered. Inclusion of surface as well as subsurface is important. While 
in many places the cave system is 60 to 100 feet below the ground, in 
other places tree roots have been observed suggesting a close proximity 
to the surface. Some surface activities could affect the cave 
environment if safeguards are not in place. We believe it is important 
to draw some line around the area. Initial estimates are that an area 
of about 10,000 acres would likely cover the entire cave system which 
includes other significant caves. The establishment of this NCA would 
be consistent with the current uses of the area.

                               CONCLUSION

    We want to express our deep appreciation to Senators Domenici and 
Bingaman for introducing this legislation to protect the important cave 
resources of the Fort Stanton and Snowy River Cave system. These are 
important resources--scientifically and educationally. We look forward 
to working cooperatively both with Congress and our many partners to 
see this vision become a reality.
                                 ______
                                 
 Prepared Statement of Lawrence E. Benna, Deputy Director, Operations, 
                  Bureau of Land Management, on S. 703

    Mr. Chairman, thank you for the opportunity to appear before you 
today to testify on S. 703, a bill that would convey by direct sale 
approximately 113 acres of public lands managed by the Bureau of Land 
Management (BLM) in Clark County, Nevada to the Nevada Speedway, LLC. 
The lands would be used as a parking lot to alleviate parking 
congestion at the Las Vegas Motor Speedway and are located directly 
adjacent to land currently owned by Nevada Speedway, LLC. The 
Administration does not object to the proposed conveyance in S. 703 but 
cannot support the bill's distribution of revenues from the sale of 
these public lands. We would also like an opportunity to work with the 
sponsor of the bill and the Committee to ensure that the conveyance 
results in the best possible return for the public and to resolve some 
other concerns with the bill.
    The land proposed for sale is within the southwest part of a 
designated community sand and gravel pit area. However, there are no 
ongoing sand and gravel operations on the lands proposed to be 
conveyed. No other leasing, commodity use, or production activities 
occur on the lands. Recreation use in the area is also limited.
    S. 703 requires the Secretary to complete an appraisal of the land 
not later than 90 days after the date of enactment of the bill. Nevada 
Speedway, LLC has 30 days from the completion of the appraisal to 
submit an offer to the Secretary to acquire the lands at the appraised 
value. The Secretary then has 30 days to complete the conveyance. The 
Act directs the BLM to convey the lands to Nevada Speedway, LLC 
notwithstanding land use planning and other requirements provided for 
in sections 202 and 203 of the Federal Land Policy and Management Act 
(FLPMA) and withdraws the lands from all forms of entry. All costs 
associated with the appraisal and conveyance of the lands are to be 
paid by Nevada Speedway, LLC. The proceeds from the sale of the lands 
are to be distributed in accordance with section 4(e)(1) of the 
Southern Nevada Public Land Management Act (SNPLMA), which provides for 
the distribution of 5 percent of the proceeds to the State of Nevada 
general education program, 10 percent to Southern Nevada Water 
Authority, and 85 percent to the special account for the various 
resource purposes described in SNPLMA.
    While the BLM supports the conveyance of these lands to Nevada 
Speedway, LLC, we would like to work with Committee to resolve some 
concerns with the legislation. First, the lands identified for 
conveyance are outside the SNPLMA disposal boundary and they are not 
identified for disposal in the BLM Las Vegas Resource Management Plan. 
The BLM, as a matter of policy and practice, and in accordance with 
FLPMA, uses its land use planning process to identify public lands 
suitable for disposal. Based on previous sales in Clark County, Nevada, 
it is likely that the lands identified for conveyance in S. 703 would 
be sold at a much higher price than their appraised value if the sale 
was completed through a competitive procedure. Therefore, to ensure a 
fair return to the public, the Department supports the sale of these 
lands via a competitive bidding process, as defined in Section 203 of 
FLPMA, rather than a direct sale to Nevada Speedway, LLC.
    Second, because the lands proposed for conveyance fall outside of 
the SNPLMA disposal boundary, the Administration recommends that the 
proceeds of the sale be directed to the U.S. Treasury.
    Finally, the Department would like to work with the Committee on 
some additional technical modifications to S. 703, including ensuring 
that the subsurface estate is conveyed along with the surface estate to 
prevent any split-estate issues.
    Thank you for the opportunity to testify on this bill. We look 
forward to working with the Committee to resolve the issues discussed 
above. I will be happy to answer any questions.
                                 ______
                                 
 Prepared Statement of Lawrence E. Benna, Deputy Director, Operations, 
                Bureau of Land Management, on H.R. 1101

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to testify today in support of H.R. 1101, which will revoke 
a portion of Public Land Order 3442, dated August 21, 1964. This Public 
Land Order withdrew approximately 16,600 acres of public domain lands 
along the Colorado River in California and Arizona for the Cibola 
National Wildlife Refuge (NWR). The withdrawal erroneously included a 
small area of approximately 140 acres in Imperial County at the 
southern boundary of the California portion of the Refuge. A similar 
bill in the 108th Congress, H.R. 417, was passed by the House and by 
the Senate with an amendment, but was not enacted.
    Prior to 1964, this property fell under the jurisdiction of the 
Bureau of Land Management (BLM). In 1962, the BLM issued a permit for a 
public recreation concession on 18 acres of the lands now in question. 
The concession is known as ``Walter's Camp,'' and consists of a 
recreational vehicle park, a small marina, and a store, and the BLM 
estimates that Walter's Camp receives 11,000 visitors per year. Because 
neither the Fish and Wildlife Service (FWS) nor the BLM recognized the 
mistake in legal descriptions on the ground, the BLM continued to renew 
the original permit and the recreational concession use has continued, 
unbroken, to the present time. The current concession contract was 
issued by the BLM in 1980, under the provisions of Section 10 of the 
Reclamation Project Act of 1939 for a period of 20 years. Four 
extensions to the current contract have since been issued.
    The National Wildlife Refuge System Administration Act of 1966, as 
amended, (Act) requires that all uses of refuge lands be compatible 
with the purpose for which the refuge was established. Section 4(a) of 
the Act and section 204(j) of the Federal Land Policy and Management 
Act both prohibit the Secretary of the Interior from revoking 
withdrawals of land within NWRs. For this reason, Congressional action 
is required to remove these lands from the Refuge System.
    Since the inclusion of these lands in Public Land Order 3442 was a 
mistake, due to the prior existence of the concession, we believe the 
most equitable solution is removal of the lands from the refuge. There 
are no listed species inhabiting the 140 acres and the area in question 
is, at best, marginal wildlife habitat. Removal of the 140 acres of 
land from the refuge would free-up the area necessary for the 
continuation of the recreational concession, while still affording more 
than adequate protection for the nearest significant wildlife habitat 
feature, Three Fingers Lake.
    We believe that withdrawal of these lands will benefit all parties 
involved--the concessionaire, the Service, the BLM and, ultimately, the 
public. For this reason, we support the bill and urge prompt action on 
enactment of H.R. 1101.
                                 ______
                                 
 Prepared Statement of Lawrence E. Benna, Deputy Director, Operations, 
                 Bureau of Land Management, on S. 1131

    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 1131, the ``Idaho Land Enhancement 
Act.'' This legislation authorizes the Bureau of Land Management (BLM) 
and the U.S. Forest Service (USFS) to move forward with an exchange 
that has been developed in collaboration with the State of Idaho and 
the City of Boise. The exchange was initiated by the City of Boise to 
preserve open space in the Boise Foothills. Under S. 1131, conveyance 
of State-owned lands in the Boise foothills into Federal ownership will 
secure open space for residents of Boise and Ada County, and, in 
exchange, conveyance of Federal timbered lands to the State of Idaho 
will provide the State with more long-term revenue than could be 
derived from its lands in the Boise foothills. The exchange authorized 
by S. 1131 is a milestone in a 30-year effort of conservation in the 
Boise Foothills. The Department supports enactment of S. 1131.

                         ADMINISTRATIVE ACTION

    A proposed multi-party exchange initiated by the City of Boise 
involving lands managed by the BLM, the USFS, and the State of Idaho 
(no privately-owned lands are involved) has been proceeding 
administratively. In accordance with the administrative process for 
land exchanges, the BLM and USFS completed a Feasibility Analysis, and, 
on April 26, 2005, the BLM, USFS, State of Idaho, and City of Boise 
signed an Agreement to Initiate for the Boise Foothills--Northern Idaho 
Land Exchange (Agreement). As the Forest Service does not have the 
authority to participate in a three party exchange absent Congressional 
authorization, S. 1131 is needed to effectuate the exchange Agreement.

                                S. 1131

    The legislation authorizes the BLM and the U.S. Forest Service to 
proceed with the land exchanges described in the Agreement. As 
authorized by S. 1131, under the Agreement, the BLM is to convey 
approximately 605 acres of public land to the State of Idaho; the USFS 
is to convey approximately 7,220 acres of National Forest System land 
in the Idaho Panhandle and Clearwater National Forests to the State of 
Idaho; and the State of Idaho is to convey approximately 11,085 acres 
to the United States (6,930 acres to be managed by the BLM and 4,155 
acres to be managed by the USFS).

                       AUTHORIZATION OF EXCHANGE

    Section 3 authorizes the Secretary of the Interior and the 
Secretary of Agriculture (Secretaries) to complete the land exchanges 
described in the Agreement. The BLM is to convey four parcels which 
total approximately 605 acres, including Boise Peak (86 acres), Mt. 
Coeur d'Alene (120 acres), Skeel Gulch (80 acres), and Rock Creek (319 
acres). Although forested, none of the BLM lands to be conveyed in this 
exchange contain old growth or officially designated old growth 
replacement stands. There is no current mining or mineral activity on 
the BLM lands, except in the Rock Creek parcel, where much of the area 
contains old mining prospects. There are no other permitted uses.
    Although the 605 acres of public land to be conveyed out of Federal 
ownership by the BLM are not identified for disposal, we believe the 
exchange is in the public interest because this exchange will result in 
a net gain of 3,156 acres of high value resource lands within 
designated retention areas, providing management protection for 
cultural resources and a variety of sensitive wildlife species. 
Acquisition of the State lands in the Boise foothills will help the BLM 
meet its management objectives to protect and enhance watershed 
resources, wildlife habitat, recreation opportunities, and scenic 
values.
    The legislation authorizes the parties to enter into additional 
agreements that specify other terms and conditions necessary to 
complete the land exchange:

  <bullet> provide legal descriptions of the Federal land and the State 
        land to be exchanged;
  <bullet> identify all reserved and outstanding interests in the 
        Federal land and State land; and
  <bullet> stipulate any cash equalization payments required.

    The conveyances are subject to valid and existing rights. As part 
of the Agreement, the BLM, USFS, and State of Idaho reviewed, examined, 
and disclosed all valid existing rights on their respective lands.
    S. 1131 also requires the Federal land and State land to be 
exchanged under the bill to be of equal value; and, if the values are 
not equal, the bill authorizes the equalization of value by cash 
payment to the United States or to the State of Idaho, as appropriate, 
in accordance with section 206(b) of the Federal Land Policy and 
Management Act (FLPMA). The value of the Federal and State lands is to 
be determined in accordance with the Uniform Appraisal Standards for 
Federal Land Acquisitions, and the appraisals must be approved by the 
Secretaries. Any cash equalization payment received by the United 
States is to be used by the Secretary of Agriculture for the 
acquisition of land to add to the National Forest System in the state 
of Idaho.
    The City of Boise passed a bond levy to support acquisition of 
properties on the Boise Front to preserve its natural character. The 
City will pay the costs associated with the conveyances outlined in the 
Agreement and this Act, including the costs of any field inspections, 
environmental analyses, appraisals, title examinations, and deed and 
patent preparations. The BLM will review the exchange package in its 
regular course of business (i.e., at no additional cost to the City of 
Boise).

                       MANAGEMENT OF FEDERAL LAND

    Section 4 transfers administrative jurisdiction of approximately 
2,111 acres of public land in Shoshone County, Idaho, currently managed 
by the BLM, to the USFS, to be managed in accordance with the laws and 
regulations applicable to the National Forest System. This area--called 
Grandmother Mountain--is completely surrounded by National Forest 
System lands that previously, as part of the Arkansas-Idaho Land 
Exchange Act of 1992 (P.L. 102-584), had been transferred from BLM 
management into the National Forest System. Consolidation of 
administrative jurisdiction in this area will improve the Federal 
government's management of the land and resources. Also, these 2,111 
acres are in a Wilderness Study Area, and the legislation preserves 
Congress' options to act on this WSA by providing that after transfer 
to the USFS, this area will be managed in a manner that preserves the 
suitability of the land for designation as wilderness until Congress 
determines otherwise.
    In addition, Section 4 requires the Secretary of the Interior to 
manage the land conveyed by the State of Idaho as acquired land (as 
distinct from public domain) under FLPMA and other applicable laws. 
Under FLPMA, the BLM manages both public domain and acquired lands 
under the same management structure and plans. The direction in S. 1131 
that the lands conveyed by the State be managed as acquired lands 
affects only the ability to locate mining claims under the Mining Law 
of 1872 (which applies exclusively to public domain lands); exploration 
for and mining of locatable minerals on acquired lands is through a 
permitting process rather than by claim.
    Finally, concerning land use planning, Section 4 provides that BLM 
need not do an amendment or revision to its resource management plans 
(RMP) upon acquisition of lands from the State of Idaho. The acquired 
lands are to be managed under the existing RMP applicable to that area, 
until the land use plans are updated in the regular planning process. 
The BLM's Coeur d'Alene Field Office is currently working on a Resource 
Management Plan that will replace the current land use plan. The Field 
Office held a scoping meeting earlier this year on the proposed changes 
to the RMP, and public comments have been generally favorable. The 
Field Office expects to issue a Draft plan revision by the end of 
calendar year 2005, and hopes to issue a Final RMP by December of 2006.

                        MISCELLANEOUS PROVISIONS

    Section 5 of the bill contains several miscellaneous provisions. 
This Section:

  <bullet> authorizes the Secretaries and the Idaho State Board of Land 
        Commissioners to modify the land descriptions in the Agreement 
        to correct errors; make minor adjustments to the parcels based 
        on a survey or other means; or reconfigure the parcels to 
        facilitate the land exchange;
  <bullet> provides that the written legal description shall prevail if 
        there is a discrepancy between a map, acreage estimate, and 
        written legal description of the Federal land or State land;
  <bullet> provides that, subject to valid existing rights, any public 
        land orders withdrawing any of the Federal land from 
        appropriation or disposal under the public land laws are 
        revoked to the extent necessary to permit disposal of the 
        Federal land. (No withdrawals are on the BLM land);
  <bullet> provides that subject to valid existing rights, pending 
        completion of the land exchange, the Federal land to be 
        conveyed under this Act is withdrawn from all forms of 
        location, entry, and patent under the mining and public land 
        laws; and disposition under the mineral leasing laws and the 
        Geothermal Steam Act of 1970.

    As part of the administrative process detailed in the Agreement, 
the BLM had previously segregated the Federal lands proposed for 
exchange in the Agreement.
    Section 5(e) of S. 1131 expresses the Congressional finding that 
the Forest Service and the BLM have conducted adequate analyses and 
reviews of the environmental impacts of the exchange authorized under 
this Act, and stipulates that no further administrative or 
environmental analyses or examination is required to carry out any 
activities authorized under this Act. As part of the Agreement, the 
BLM, Forest Service, and the City of Boise agreed to be jointly 
responsible for completing environmental and cultural review work on 
the Federal lands being transferred to the State of Idaho. The City of 
Boise is responsible for paying for contract environmental and cultural 
review work approved by all parties to the Agreement. The BLM, Forest 
Service, Idaho Department of Lands, and the City of Boise will be 
jointly responsible for completing mineral reports, to be paid for by 
the City of Boise.
    Under the Agreement, initial NEPA scoping was done. The BLM and 
Forest Service have completed the following resource assessments: 
cultural/historic, Threatened and Endangered Species, biological, 
botanical, noxious weeds, timber, wetlands, floodplains, water 
resources, recreation, wilderness, visual, mineral and mineral 
potential. Pursuant to the Congressional Finding in Section 5(e), the 
BLM and Forest Service would carry out no further administrative or 
environmental analysis in completing the exchange delineated in the 
bill. We will work with the Committee so that there is a common 
understanding of the additional administrative or environmental review 
that would otherwise be undertaken by the agencies.
    Thank you for the opportunity to testify on S. 1131. I would be 
glad to answer any questions.
                                 ______
                                 
           Prepared Statement of the National Park Service, 
                 Department of the Interior, on S. 1238

    Thank you for the opportunity to present for the record the views 
of the Department of the Interior on S. 1238, a bill to amend the 
Public Lands Corps Act of 1993 to provide for the conduct of projects 
that protect forests and for other purposes.
    The National Park Service (NPS) has successfully implemented the 
Public Land Corps Act of 1993, to expand our youth service 
opportunities to carry out needed repairs and restoration projects 
within the National Park System. With the passage of the Recreation Fee 
Demonstration Program in 1996 (P.L. 104-134; U.S.C. 4601-6a), funding 
was available to implement the NPS Public Land Corps program in 1997.
    As required in the recreation fee demonstration legislation and in 
the recently passed Federal Lands Recreation Enhancement Act (P.L. 108-
447), funds acquired through the recreation fee program may be used 
only for specific purposes. For that reason, NPS Public Land Corps 
projects must focus on repair, maintenance and facility enhancement 
related directly to visitor enjoyment, education, access, services and 
health and safety or on habitat restoration related directly to 
wildlife dependent recreation.
    The NPS regards the Public Lands Corps Program as an important and 
successful example of civic engagement and conservation. The program is 
unique because nonprofit agencies such as the Student Conservation 
Association and the National Association for Service and Conservation 
Corps serve as the primary partners in administering the Public Land 
Corps program. In addition, any nonprofit youth organization may 
participate such as the Boy and Girl Scouts, local high schools and job 
training youth organizations. Each year over 300 parks apply for work 
grants of up to $25,000. The nonprofit youth organizations assist the 
NPS in its efforts to attract diverse audiences to the parks by 
recruiting youth 16 to 25 years of age from all socioeconomic, cultural 
and ethnic backgrounds. Since 1997, the Public Land Corps has funded 
more than 2,000 work projects with more than 100 parks participating on 
an annual basis.
    S. 1238 would allow the National Park Service to expand the current 
work it accomplishes with the Public Land Corps by creating an 
additional type of project to promote healthy forests and authorize 
appropriations for these projects. The legislation would not adversely 
affect the National Park Service's ability to continue its practice of 
funding other Public Land Corps projects through the use of proceeds 
from the recreation fee program. In addition, we would still be able to 
prioritize projects according to the needs of the parks. Therefore, the 
Department of the Interior has no objection to this legislation. 
However, funding for projects authorized by this legislation would be 
subject to current and future budgetary constraints and the 
Administration's priority-setting process.

    Senator Craig. Thank you, Larry, thank you very much. Your 
concerns in relation to certain specific portions of any of the 
bills, of course, will be looked at and we will work with the 
Bureau to see if we can resolve them as best we possibly can.
    Mr. Benna. Thank you, Mr. Chairman.
    Senator Craig. Joel, please proceed.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, U.S. FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, thank you for giving me the 
opportunity to present the views of the U.S. Department of 
Agriculture on S. 997, the Montana Cemetery Act of 2005, S. 
1131, the Idaho Land Enhancement Act of 2005, and S. 1238, the 
Public Lands Corps Healthy Forest Restoration Act. I will ask 
that my entire written statement, which I will summarize, be 
made part of the hearing record.
    Senator Craig. Without objection, it will be.
    Mr. Holtrop. S. 997, Montana Cemetery Act of 2005--this 
legislation directs the Secretary to convey, for no 
consideration, all right, title and interest in 10 acres of 
land within the Beaverhead-Deerlodge Forest, Montana to 
Jefferson County, Montana to be used for cemetery purposes. The 
parcel to be conveyed is a National Register-eligible property, 
that contributes to the significance of the Elkhorn town site 
and the Elkhorn historic mining district. The 10-acre 
conveyance will provide a sufficient amount of land to 
accommodate all known grave sites. The Department support S. 
997. We would like to work with the committee to ensure that 
the land conveyed will be managed with due consideration for 
the historic and cultural values associated with the cemetery. 
The Department also recommends that the conveyance of the 
public land to the State include consideration for the market 
value of the property, and the for the administrative cost 
associated with the conveyance.
    S. 1131, Idaho Land Enhancement Act. The Idaho Land 
Enhancement Act would authorize the Forest Service and Bureau 
of Land Management to enter into a collaborative exchange with 
the State of Idaho and the city of Boise, Idaho. The Department 
supports enactment of S. 1131. The exchange was initiated by 
the city of Boise to preserve open space in the Boise 
foothills, the goal was to reduce the potential of scenic and 
recreational lands that are highly valued by the city of Boise 
from being developed, to increase long-term financial returns 
to the Idaho State Endowment Fund, and to improve land 
management through consolidation of land ownership on Federal 
and State lands. In addition, the proposed land exchange 
addresses threats upon managed recreational use, habitat 
fragmentation and fire and fuels reduction in both northern and 
southern Idaho.
    In April, the city of Boise, the Idaho Department of Lands, 
the Forest Service and BLM signed an agreement to initiate an 
exchange which provides the framework for S. 1131. Under the 
proposed exchange, approximately 7,200 acres of National Forest 
System land between the Idaho Panhandle National Forest and the 
Clearwater National Forest would be conveyed to the State of 
Idaho. Approximately 11,000 acres of land under the 
jurisdiction of the Idaho Department of Lands would be 
conveyed--to the Bureau of Land Management, 7,000 acres, and to 
the U.S. Forest Service, 4,000 acres. In addition, 2,100 acres 
in the Grandmother Mountain Area, identified as a wilderness 
study area under BLM's jurisdiction in Shoshone County, Idaho, 
would be transferred to the Secretary of Agriculture to be 
managed on the Idaho Panhandle National Forest in a manner that 
preserves the suitability for designation as wilderness until 
Congress determines otherwise.
    The administrative costs associated with the conveyance of 
the Federal land and State land would be paid by the city of 
Boise, pursuant to the congressional finding in section 5(e), 
the Forest Service would carry out no further administrative or 
environmental analysis in completing the exchange, as 
delineated in the bill.
    We recommend two amendments to the bill, first, amend 
section 4(e) to modify the boundaries on all four of the 
affected national forests to accommodate the State of Idaho 
parcels that would be acquired by the Forest Service, which 
would be outside of the existing National Forest boundaries. 
Second, amend section 3(d) to allow for the deletion of parcels 
as an alternative method for equalizing values. The intent of 
this section is to require that the exchange be of equal value 
between State and Federal lands. Cash equalization is the only 
method provided to achieve this result under S. 1131, as 
introduced.
    And finally, S. 1238, the Public Lands Corps Healthy Forest 
Restoration Act. S. 1238 would amend the Public Lands Corps Act 
of 1993 to direct the Secretary of Agriculture and the 
Secretary of the Interior in carrying out priority projects in 
a specific area to give preference to the maximum extent 
practicable to qualified Youth or Conservation Corps located in 
that specific area that have a substantial portion of members 
who are economically, physically or educationally 
disadvantaged. It is important to recognize that implementation 
of some priority projects require a certain amount of maturity, 
decisionmaking capability, perspective and attention to safety, 
it is both appropriate and necessary to provide the Secretary 
the discretion in determining the type of priority projects 
suitable for the target corps.
    The Department support S. 1238, the Department would like 
to work with the committee and bill sponsors to ensure specific 
conservation corps would be covered under S. 1238 since we work 
with several programs that service disadvantaged youth.
    This concludes my statement, I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
 System, U.S. Forest Service, Department of Agriculture, on S. 997, S. 
                               1131, and 
                                S. 1238

    Mr. Chairman and Members of the Subcommittee, thank you for giving 
me the opportunity to present the views of the U.S. Department of 
Agriculture on S. 997, the Montana Cemetery Act of 2005; S. 1131, the 
Idaho Land Enhancement Act of 2005; and S. 1238, the Public Lands Corps 
Healthy Forest Restoration Act.

                  S. 997--MONTANA CEMETERY ACT OF 2005

    This legislation directs the Secretary to convey for no 
consideration, all right, title, and interest in 10 acres of land 
within the Beaverhead-Deerlodge National Forests to Jefferson County, 
Montana to be used for cemetery purposes. The Department is supportive 
of S. 997, but would recommend that the Committee add provisions to the 
legislation that will protect historic interests and provide 
consideration to the Federal government for the conveyance.
    The parcel to be conveyed to Jefferson County is currently being 
used for cemetery purposes but a special use authorization has never 
been issued for this purpose. The 10-acre conveyance will provide a 
sufficient amount of land to accommodate all known grave sites and any 
additional sites that may be outside of the concentration of known 
sites. In addition the conveyance is of adequate size to include the 
cemetery parking lot so that it will be located on private property.
    The parcel to be conveyed is a National Register eligible property 
that contributes to the significance of the Elkhorn town site and the 
Elkhorn historic mining district. We would like to work with the 
committee and through the NEPA process to ensure that the land conveyed 
will be managed with due consideration for the historic and cultural 
values associated with the cemetery.
    Also, we are concerned about conveying public land to other 
jurisdictions without any form of consideration. The Department does 
not object to making the Federal land available for use as a cemetery, 
but requests that the conveyance of the public land estate include 
consideration for the market value of the property and for the 
administrative costs associated with the conveyance.

                  S. 1131--IDAHO LAND ENHANCEMENT ACT

    The Idaho Land Enhancement Act would authorize the Forest Service 
and the Bureau of Land Management (BLM) to enter into a collaborative 
land exchange with the State of Idaho and the City of Boise, Idaho. The 
exchange was initiated by the City of Boise to preserve open space in 
the Boise foothills. The exchange culminates a long-term effort by all 
parties to preserve the character of the Boise foothills, to increase 
long term financial return to the Idaho State Endowment Fund and to 
improve land management through consolidation of land ownership on 
federal and state lands. The Department supports enactment of S. 1131. 
We have a few recommendations that we would like the committee to 
consider.
    The Boise metropolitan area is one of the fastest growing regions 
in the nation. The Boise foothills region provides a scenic backdrop as 
well as multiple opportunities for outdoor recreation activities by 
area residents. The State of Idaho manages approximately 6,000 acres of 
State Endowment lands within the Foothills that have significant 
residential development potential. These lands have a State 
Constitutional mandate to maximize revenue to benefit State public 
schools. These lands currently yield very little revenue from livestock 
grazing or from any other source thus there are incentives to convey 
the land out of public ownership.
    To reduce the potential of scenic and recreational lands that are 
highly-valued by the City of Boise from being developed, S. 1131 
proposes to convey lands in the foothills from the State of Idaho to 
the BLM and the Forest Service. To equalize the value of the exchange, 
federal timbered lands under the jurisdiction of the Forest Service 
would be conveyed to the State of Idaho. The administrative costs 
associated with the conveyance of the Federal land and State land would 
be paid by the City of Boise.
    The proposed land exchange addresses threats of unmanaged 
recreational use, habitat fragmentation, and fire and fuels reduction 
in both Northern and Southern Idaho. This proposal has been proceeding 
through the administrative process for land exchanges. Upon 
determination that the exchange was feasible and worthy of continued 
study, on April 26, 2005, the City of Boise, Idaho Department of Lands, 
Forest Service and the BLM signed an agreement to initiate an exchange.
    As part of the agreement, BLM, the Forest Service and Boise City 
agreed to be jointly responsible for completing environmental and 
cultural review work on Federal lands being transferred to the State of 
Idaho. Boise City is to pay for contract environmental and cultural 
review work approved by all parties to the agreement. BLM, the Forest 
Service, Idaho Department of Lands, and Boise City will be jointly 
responsible for completing mineral potential reports, also to be paid 
for by the City of Boise.
    Under the agreement, initial NEPA scoping was done. BLM and the 
Forest Service have completed the following resource assessments: 
cultural/historic, Threatened and Endangered Species, biological, 
botanical, noxious weeds, timber, wetlands, floodplains, water 
resources, recreation, wilderness, visual, socio-economic and 
environmental justice, mineral and mineral potential. Pursuant to the 
Congressional Finding in Sec. 5(e), the Forest Service would carry out 
no further administrative or environmental analysis in completing the 
exchange as delineated in the bill. We will work with the Committee so 
that there is a common understanding of the additional administrative 
or environmental review that would otherwise be undertaken by the 
agency.
    This agreement provides the framework for S. 1131. Under the 
proposed exchange, approximately 7,220 acres of National Forest System 
land within the Idaho Panhandle National Forest and the Clearwater 
National Forest would be conveyed to the State of Idaho. Approximately 
11,085 acres of land under the jurisdiction of the Idaho Department of 
Lands would be conveyed to the Bureau of Land Management (7,000 acres) 
and to the U.S. Forest Service (4,085 acres). In addition 2,111 acres 
in the Grandmother Mountain area currently under the jurisdiction of 
the Bureau of Land Management in Shoshone County, Idaho would be 
transferred to the Secretary of Agriculture to be administered by the 
Forest Service on the Idaho Panhandle National Forests.
    Management of National Forest System lands within the Idaho 
Panhandle, Boise, Wallowa-Whitman and Clearwater National Forests would 
be improved with the consolidation of land ownership patterns achieved 
by the Act. Efficiencies will be realized by reducing the number of 
joint-use roads and easements, and decreasing costs associated with 
boundary management. Consolidation of National Forest ownership within 
the Elk Creek watershed will prevent habitat fragmentation and increase 
opportunities for public recreation in a popular area of the Clearwater 
National Forest. Likewise, the State of Idaho and the BLM will benefit 
from land ownership consolidation and increase ability to achieve 
important management objectives.
    The 2,111 acre Grandmother Mountain tract is in an area where other 
land under BLM jurisdiction was previously transferred to the Forest 
Service. Through the Arkansas-Idaho Land Exchange Act of 1992 
approximately 10,000 acres of land administered by the BLM were 
conveyed to the Forest Service. The 2,111 acre remaining BLM tract is 
identified as a Wilderness Study Area. The legislation provides that 
land transferred to the Forest Service that was previously designated 
as a Wilderness Study Area shall be managed in a manner that preserves 
the suitability of the land for designation as wilderness until 
Congress determines otherwise.
    We would like to work with the committee to implement the following 
recommendations concerning this bill. The intent of Sec. 3(d) is to 
require that the exchange be of equal value between state and federal 
lands, however, the cash equalization provision is the only method 
described to facilitate this result. Since none of the parties wish to 
incur a large cash obligation, we recommend adding a provision allowing 
for the deletion of parcels as an alternative method of equalizing 
values.
    There are several of the State of Idaho parcels that would be 
acquired by the Forest Service that are located adjacent to but outside 
of the existing National Forest boundaries. We recommend amending Sec. 
4(e) to modify the boundaries on all four of the affected National 
Forest to accommodate these parcels.

   S. 1238--PUBLIC LANDS CORPS HEALTHY FOREST RESTORATION ACT OF 2005

    The Department supports S. 1238. However, the Department would like 
to work with the committee and bill sponsors to ensure specific 
conservation corps would be covered under S. 1238 since we work with 
several programs that service disadvantaged youths.
    S. 1238 would amend the Public Lands Corps Act of 1993 to direct 
the Secretary of Agriculture and the Secretary of the Interior, in 
carrying out priority projects in a specific area, to give preference, 
to the maximum extent practicable, to qualified youth or conservation 
corps located in that specific area that have a substantial portion of 
members who are economically, physically, or educationally 
disadvantaged. Priority projects are those that will: (1) reduce 
wildfire risk to communities, municipal water supplies, or other at 
risk Federal land; (2) protect a watershed or address a threat to 
forest and rangeland health, including catastrophic wildfire; (3) 
address the impact of insect or disease infestations or other damaging 
agents on forest and rangeland health; (4) protect, restore, or enhance 
forest ecosystem components to promote recovery of threatened and 
endangered species, to improve biological diversity, or to enhance 
productivity and carbon sequestration.
    It is important to recognize that implementation of some priority 
projects requires a certain amount of maturity, decision-making 
capability, perspective and attention to safety. It is both appropriate 
and necessary to provide the Secretaries the discretion in determining 
the types of priority projects suitable for the target corps.
    In many respects, the goals of S. 1238 are consistent with existing 
authorities that the Department has supported, including the Healthy 
Forests Restoration Act (HFRA) [P.L. 108-208], the original Public Land 
Corps Act of 1993, P.L. 103-82 Title II, and the Youth Conservation 
Corps Act of 1970, P.L. 91-378.
    However, the Administration does have concerns about the 
Committee's expectation regarding the authorization of specific 
appropriations contained in the bill given current and future budgetary 
constraints.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Craig. Well, Joel, thank you very much. I have no 
questions at this time, but we will work with you on your 
suggestions in relation to S. 1131. I think those are good, 
solid recommendations, and we will see if that cannot be 
resolved. Let me thank you both very much.
    Mr. Benna. Thank you, Mr. Chairman.
    Mr. Holtrop. Thank you, Mr. Chairman.
    Senator Craig. Now, let me invite before the committee 
Keith Johnson, controller of the State of Idaho, Keith. It's a 
pleasure to have you before the committee.

          STATEMENT OF KEITH L. JOHNSON, CONTROLLER, 
                   STATE OF IDAHO, BOISE, ID

    Mr. Johnson. Good afternoon, I am the Idaho State 
Controller, and I'm here by assignment, and I wanted to let you 
know that I am here not as the State's Chief Accountant, but as 
a member of the State Board of Land Commissioners. The State 
Controller is one of five members of that Board of Land 
Commissioners that's responsible for management policy 
direction for the endowment lands in the State of Idaho. I also 
have submitted written comments that I would like to include as 
a part of the record.
    Senator Craig. Keith, your full statement will become a 
part of the record. Thank you.
    Mr. Johnson. Thank you.
    I am here before you today to endorse and request your 
support for the Idaho Lands Enhancement Act, or S. 1131, 
because of its benefits to citizens, to schools, to communities 
as well as the Federal and State agencies that are involved in 
the legislation. As has been noted, directs the Secretaries of 
the Interior and Agriculture to exchange lands that are 
currently owned and managed by the Federal Government, with 
lands owned and managed by the State of Idaho.
    Passage of this legislation will grant the authority to 
ultimately provide the State of Idaho with more timberland, 
meaning greater revenue to our public schools. The people of 
Idaho will get more open space, the Federal lands will be 
protected from development and other limited uses forever. 
Additionally, Federal and State agencies will increase 
efficiency in managing those lands for fire and basic species 
and recreation.
    Invasive species and recreation--the State-owned parcels in 
the Boise Foothills subject to this are currently endowment 
plans that are required under the State Constitution to be 
managed for the maximum financial return to the beneficiaries, 
primarily, public schools in Idaho. Historically, these lands 
have provided revenue to the beneficiaries through leasing the 
ground to cattle and sheep ranchers for grazing, however, those 
opportunities are becoming more limited due to the economics of 
ranging in an urbanized setting. Moreover, the State cannot 
legally, directly convey these parcels to the city of Boise, 
nor can we, as a landlord, manage them for non-monetary or 
purely aesthetic reasons. We have a constitutional mandate as 
fiduciaries to maximize financial return to those 
beneficiaries, so we needed a way to protect that open space 
and the desire of the local community without negatively 
affecting the financial condition of those local beneficiaries. 
This proposal and exchange provides the means to make that 
possible.
    Commercial timberlands in Idaho currently provides over $50 
million each year, primarily to benefit the public schools in 
Idaho. Passage of this legislation will enhance our ability to 
provide funding for schools, while providing the desired 
benefits to the community and the other government agencies.
    The exchange involves approximately 20,000 acres in 7 Idaho 
counties. A tremendous amount of effort has gone into this 
exchange, all parcels in the exchange have been evaluated for 
legal boundaries and cumbrances, legal access, mineral 
potential, hazardous materials, threatened and endangered plant 
and animal habitat, wetlands, cultural resources and timber 
types, to ensure equal economic value between the State and 
Federal holdings.
    From the beginning, as the concept of this exchange was 
being developed, a primary goal was to identify a land exchange 
package that was absent of environmental resource concerns. The 
surveys were conducted by professional staff, the analysis was 
rigorous and included a mix of private and independent 
contractors, as well as professional staff from the Department 
of Lands, and the Clearwater National Forest, where the bulk of 
the Federal parcels are going to be located. We held a series 
of public forums to solicit public comment, meetings were held 
with county commissioners to get their input, public 
participation was solicited throughout the series of open 
houses.
    Senator Craig, Congressman Butch Otter and Governor Dirk 
Kempthorne held a joint news conference to help advertise the 
opportunity to comment on the exchange, a website had been 
developed, by the city of Boise to provide information, 
including copies of the legislation and gave the public an 
opportunity to comment. Conservation and environmental groups 
were specifically solicited for input and tribal governments 
were also engaged to provide comment.
    The proposal enjoys overwhelming support in Idaho, the 
exchange encourages both common sense and improved economics. 
We think it makes sense for the State to increase revenues to 
the public school endowment while ensuring open space access to 
the citizens. We think it makes sense to save money to have 
publicly managed lands connected or contiguous for ecosystem-
wide management. It makes sense for the State of Idaho and the 
Federal Government to have better access to prevent and battle 
invasive species and wild land fires, and it makes sense to 
provide more recreational opportunities and access to our 
public lands for our citizens.
    From the environmental community, to public officials to 
land managers, everyone seems to view this as a win-win 
endeavor. The concept for the exchange has been open, 
transparent, it has been wise, and it has indeed been 
bipartisan and very strong support in the State of Idaho. It is 
an example of how local, State and Federal partners can come 
together to work on an issue to develop an exchange which the 
public and the land are the ultimate beneficiaries.
    Consequently, I'm here to urge your support in the passage 
of the legislation, and certainly answer any questions that I 
can for you. Thank you.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Keith L. Johnson, Idaho State Controller

    Mr. Chairman, as Idaho's State Controller, I am one of five members 
of the State Board of Land Commissioners (Land Board) which is 
comprised of five of our state's elected officials. This includes the 
Governor, the Secretary of State, the Attorney General, the 
Superintendent of Public Instruction and myself, the State Controller. 
The State Land Board, as trustee, is charged under the Idaho 
Constitution with the management of state endowment lands and funds to 
maximize the long-term financial return to certain beneficiaries within 
the state, most notably the public schools in Idaho.
    I come before you today to endorse and request your support for The 
Idaho Lands Enhancement Act (S. 1131) because of its benefits to 
citizens, schools and communities as well as the federal and state 
agencies involved. This collaborative piece of legislation directs the 
Secretaries of Interior and Agriculture to exchange lands that are 
currently owned and managed by the federal government with lands owned 
and managed by the State of Idaho from the Boise Foothills to North 
Idaho. While my testimony today is my own and is not intended to be a 
representation of the views of the Land Board as a whole, the board has 
been involved in this matter from its inception and has voted 
unanimously to support it.
    Passage of this legislation will grant the regulatory authority for 
this agreement which will ultimately provide the State of Idaho with 
more timberland, meaning greater revenue to Idaho's public schools. The 
people of Idaho, particularly those living in the Boise Valley, will 
get more open space, a precious commodity in one of this nation's 
fastest growing communities. These lands will be protected from 
development and other limiting uses forever. Additionally, federal and 
state agencies will increase efficiency in managing their lands for 
fire, invasive species, and recreation with their land holdings 
consolidated, rather than scattered.
    The state-owned parcels in the Boise Foothills subject to this 
exchange are endowment lands that are required under the state 
constitution to be managed for the maximum benefit of the beneficiaries 
of the endowment such as public schools. Historically, these lands have 
provided revenue to the school endowment by leasing the ground to 
cattle and sheep ranchers for grazing. However, the opportunities for 
maximum return from this practice are becoming more limited due to the 
economics of ranching in a more urbanized location versus other 
competing uses for these lands. The State cannot legally simply convey 
these parcels to the City of Boise nor can we manage them for non-
monetary returns such as recreational or aesthetic purposes. Because of 
the constitutionally mandated fiduciary duty we have as a board to 
maximize financial return, we needed a way to protect the open space 
desires of the local community without negatively impacting the 
financial condition of the beneficiaries of the endowments. This 
proposed land exchange is the means to make that possible.
    The land board currently manages approximately 750,000 acres of 
commercial timberland in Idaho. These endowment lands are the principal 
source of revenue to the beneficiaries, bringing in over $55,000,000 
annually, which benefits the public school children in Idaho. Passage 
of S. 1131 will enhance our ability to provide funding for Idaho's 
public schools while providing the desired benefits for the community 
and other government agencies.
    The Idaho State Board of Land Commissioners voted last year in a 
public meeting to grant conceptual approval of this exchange. Final 
approval is pending the successful passage of this legislation.
    All told, the exchange involves approximately 20,000 acres in 7 
Idaho counties. A tremendous amount of effort has gone into this 
exchange. All parcels in the exchange have been evaluated with regard 
to legal boundaries, encumbrances, legal access, mineral potential, 
hazardous materials, threatened and endangered plant and animal 
habitat, wetlands, cultural resources and timber types and volume to 
ensure equal economic value between the state and federal holdings.
    From the very beginning as the concept of this exchange was being 
developed, a primary goal was to identify a land exchange package that 
was absent of environmental resource concerns. Once the conceptual 
exchange lands were agreed to by the agencies, both literature reviews 
and on the ground surveys were conducted by professional staff. The 
analysis was rigorous and included a mix of private independent 
contractors hired by the City of Boise and professional staff from 
Idaho Department of Lands and the Clearwater National Forest where the 
bulk of the federal parcels are located.
    After completing the evaluation of the federal parcels to be 
conveyed to the state, a series of public forums were conducted to 
solicit public comment. First, meetings were held with County 
Commissioners to gauge their support. Next, public participation was 
solicited through a series of open house forums.
    Notifications were mailed to federal agency lists throughout the 
state. Senator Larry Craig, Congressman Butch Otter, and Governor Dirk 
Kempthorne held a joint news conference to advertise the opportunity to 
comment on the exchange. A website was developed by the city of Boise 
to provide information including copies of the proposed legislation, as 
well as the opportunity to comment. Public open house meetings were 
held in the Idaho communities of Kellogg, St. Marie's, Moscow and 
Boise.
    Tribal governments were also engaged to provide comment. Their 
principal concern was the ability to continue to hunt and fish on the 
federal parcels that would be conveyed to the state. The Idaho 
Department of Lands will honor this request.
    While no public land use change is without some level of 
opposition, this exchange proposal enjoys overwhelming support in 
Idaho. The exchange encourages both common sense and improved 
economics. It makes sense for the State to increase revenues to the 
endowment while ensuring open space access to the citizens of its 
largest community. It makes sense and saves money to have publicly 
managed lands connected or contiguous for ecosystem-wide management. It 
makes sense to consolidate scattered parcels to streamline on the 
ground management activities. It makes sense for the State of Idaho and 
the federal government to have better access to prevent and battle 
invasive species and wildland fire. It makes sense to provide more 
recreational opportunities and access to our public lands for our 
citizens.
    It is indeed rare to find the level of consensus demonstrated in 
support of this land exchange. From the environmental community to 
public officials to land managers, this is viewed as a win-win 
endeavor. The concept for this land exchange has been open, 
transparent, and has wide support throughout the state. This exchange 
is an example of how local, state, and federal partners can come 
together to collaboratively develop an exchange in which the public and 
the land are the ultimate beneficiaries. Consequently, I strongly urge 
your support in the passage of this legislation.

    Senator Craig. Keith, thank you very much.
    In part of your testimony, you've covered well the process 
that this effort has gone through. From the very beginning, I 
and others have insisted that it be a very open and transparent 
process, and that we assume that certainly most of the criteria 
of the National Environmental Policy Act be met even though 
land exchanges do not require that and Congress by its 
authority can legislate such land designation as it feels 
necessary and appropriate.
    But at the same time, I think all of us realize the 
sensitivity of it, and as a result we proceeded. You briefly 
described some of that. Would you reflect a little more on the 
public involvement, and the collaboration that went on that has 
brought us to a near-unanimous acceptance of this approach?
    Mr. Johnson. Yes, certainly, Senator. I think you've 
characterized it very well, that although NEPA technically is 
not required, the way I've heard it characterized is the spirit 
of NEPA has been met, largely, through this process. Clearly, 
the city of Boise has led this endeavor, the voters of Idaho--
or the voters of Boise--elected to tax themselves $10 million 
to acquire, through purchase, as much open space land as they 
could. Those parcels that they're purchasing are next to the 
State parcels that we will be trading to the Federal Government 
to allow the spirit of what the city of Boise wanted to 
accomplish through that vote to happen. So, it will allow open 
space for recreational use, as well as reverb the view shed of 
the city of Boise in perpetuity.
    You mentioned the public comment period, as I said in my 
statement, a website was created, public meetings were held 
throughout the State to allow folks to come and visit and to 
view maps and to get information and have their questions 
answered. We solicited comments from the Idaho Conservation 
League, the Nature Conservancy, the Kootenai Alliance--those 
environmental groups that typically, and often, have a contrary 
view to much of the land use decisions that are made in the 
State--and they have come together to work with us on this 
exchange, to make sure that it's open, that their questions are 
answered, and it hasn't been completely unanimous yet, but as 
you described, it is working toward a very comprehensive 
support for this exchange, and those environmental groups are 
on record now of not objecting to it, in most cases, supporting 
what is being proposed.
    Senator Craig. Thank you for that explanation. I think it 
was thorough and appropriate, also. Some have grown frustrated 
by, but you also covered in your testimony very well, the role 
of the State, the State Land Board's authority under law and 
constitution, and the State lands involved, and that highest 
and best use, or value rate of return for the endowments can 
really not be achieved as they once were, because of the 
changed use of that land.
    I found it fascinating, the thought went through my mind as 
you were testifying, 50, 100 years ago, that was a spring sheep 
range, and of course, that particular era of our livestock 
raising on our public lands in Idaho, and in the West, brought 
a population of people out of the Pyrenees, the Basque people 
who are now prominent, and dominant, in the State of Idaho. We 
are about to commence a Basque Festival in Boise, and it is 
second only to the one held in the Basque country of Spain. And 
all of it's a part of that culture, but I think that what this 
exchange and project demonstrates is the ability to be flexible 
and adjust as the use of the land changes over time. But the 
value of its openness, while changed, still has a high value to 
the community of Boise by their effort and their taxation.
    Let me thank you very much for taking the time to be back 
here representing the State, and the State Land Board on this 
issue, we will move it now at this stage as expeditiously as we 
can so the project can stay on time and on schedule. Thank you 
very much for being with us.
    With that, we will leave the record open for 10 days for 
questions or additional comments that may come forward on the 
legislation involved in this hearing. With that, this 
subcommittee will stand adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

   Prepared Statement of Pamela Pride Eaton, Deputy Vice President, 
       Public Lands Campaign, The Wilderness Society, on S. 1170

    Thank you for the opportunity to provide testimony for the record 
of this hearing on S. 1170, the Fort Stanton-Snowy River National Cave 
Conservation Act. The cave system at Fort Stanton, especially the newly 
discovered ``Snowy River'' portion of the cave, is a unique and 
marvelous treasure, owned by the American people and managed by the 
Bureau of Land Management (BLM). It deserves special protection and we 
are delighted legislation to protect it is moving forward.
    We want to thank Senators Domenici and Bingaman for their 
leadership in proposing legislation to safeguard this area. We look 
forward to working with the Senators and the Committee to improve S. 
1170 to ensure that this national treasure is adequately protected.

               THE NATIONAL LANDSCAPE CONSERVATION SYSTEM

    The Fort Stanton-Snowy River Cave National Conservation Area would 
be a valuable addition to the National Landscape Conservation System 
(NLCS). The National Landscape Conservation System encompasses 26 
million acres in 12 western states, including National Conservation 
Areas, National Monuments and wilderness areas. It embraces an 
astonishing array of historic sites ranging from Native American 
pueblos to traces of frontier-era migration routes. The Fort Stanton-
Snowy River Cave National Conservation Area would add a unique 
dimension to this system of national treasures.

                                S. 1170

    We strongly support the protection of the Fort Stanton-Snowy River 
Cave complex and other caves in the Fort Stanton area through the 
designation of a National Conservation Area (NCA). S. 1170 should be 
improved in a number of ways to ensure that the magnificent resources 
of the cave complex--and the lands of the Fort Stanton Area of Critical 
Environmental Concern (ACEC) of which they are a part--are adequately 
protected for all Americans.

                     SIZE OF THE CONSERVATION AREA

    S. 1170 limits the Conservation area to ``the minimum subsurface 
area necessary to provide for the Fort Stanton Cave, including the 
Snowy River passage in its entirety (which may include other 
significant caves).'' It also limits the surface area protected to 
``the minimum surface acreage . . . that is necessary to provide access 
to the cave entrance.'' These boundaries and constraints are 
insufficient to adequately protect the cave resource and the associated 
surface lands in the Fort Stanton ACEC and should be changed.

Subsurface protection
    The full extent of the Fort Stanton cave system has not yet been 
determined. As the BLM testified, ``scientists and cavers tell us that 
they expect many more miles of cave passages are left to be explored'' 
(Testimony of Lawrence E. Benna, Deputy Director, Operations, BLM, July 
20, 2005). Also, there are numerous other caves within the Fort Stanton 
area which contain significant cultural resources that are being 
studied. S. 1170 should allow for the inclusion of all caves and 
passages on federal lands in the Fort Stanton area--known and not yet 
known--in the National Conservation Area. The bill should ensure that 
all new cave discoveries on federal land that are part of the Fort 
Stanton-Snowy River Cave complex are automatically added to the NCA.
Surface protection
    S. 1170 should also protect all federally-owned surface areas above 
the caves and the surface lands should be managed consistent with the 
standards for National Conservation Areas. BLM notes in its testimony 
that ``[w]hile in many places the cave system is 60 to 100 feet below 
the ground, in other places tree roots have been observed suggesting a 
close proximity to the surface. Some surface activities could affect 
the cave environment if safeguards are not in place.'' As currently 
drafted, Section 4, Subsection D(1)(B) says the NCA designation cannot 
preclude ``any activity or use, including new uses, on the surface land 
above the Conservation Area or on any land appurtenant to that surface 
land.'' This language should be removed and all federally-owned surface 
lands associated with the cave should be included in the NCA.
    The Fort Stanton-Snowy River Cave area should be made a National 
Conservation Area, consistent with other such designations and the 
``critical elements'' outlined by Deputy BLM Director Benna in his 
testimony on July 20, 2005. According to Benna, ``[e]ach of the NCA's 
designated by Congress and managed by the BLM is unique. However, for 
the most part they have certain critical elements, these include: 
public land, mining[] and mineral leasing law withdrawal, [off-highway 
vehicle] use limitations, and language which charges the Secretary to 
allow only those uses that further the purposes for which the NCA is 
established. Furthermore, NCA proposals do not diminish the protections 
that currently apply to the lands.'' Meeting the critical elements 
includes insuring that sufficient surface lands are withdrawn to 
appropriately manage the resource, that those lands are managed to 
conserve the NCA's resources, and that at least management is as or 
more protective as the current management standards for the area, 
contained in the management prescriptions for the Fort Stanton ACEC.

                           FORT STANTON ACEC

    Ideally, S. 1170 should protect the whole Fort Stanton ACEC. This 
24,630-acre area encompasses outstanding biological, archeological, and 
scenic qualities, including the Fort Stanton-Snowy River Cave and the 
Feather Cave Archeological Complex, which includes Feather Cave, Lower 
Stanton Pueblo Ruin, and Indian Shelter Cave. Designation of the entire 
Fort Stanton ACEC as an NCA would protect the known and yet to be 
discovered portions of the Fort Stanton-Snowy River Cave complex and 
the other important values of the ACEC. The ACEC does not include the 
State-owned hospital, prison, or the Sierra Blanca Airport, all of 
which are within the boundary but not included in the acreage or 
affected by federal land designations.
    Fort Stanton ACEC is already withdrawn from the general mining 
laws, and closed to the disposal of leasable minerals and to the 
leasing of oil and gas. It is protected from other developments, such 
as major rights-of-way. Vehicle use is restricted to designated roads 
and trails. Fort Stanton is a ``Special Recreation Management Area'' 
with emphasis on providing quality recreational opportunities, while 
protecting riparian and wildlife resources.
    This entire special area should be encompassed in the Fort Stanton-
Snowy River Cave National Conservation Area created by S. 1170.

                 NAMING THE NATIONAL CONSERVATION AREA

    S. 1170 would create the ``Fort Stanton-Snowy River National Cave 
Conservation Area.'' We believe the name should be consistent with the 
naming of other conservation areas managed by the Bureau of Land 
Management. That is, the name should be the ``Fort Stanton-Snowy River 
Cave National Conservation Area.'' S. 1170 implies that it is creating 
a new class of ``Cave Conservation Areas.'' This is unnecessary and 
could be confusing to the public, who may already struggle to 
understand the various categories of public lands in the National 
Landscape Conservation System.

                            WATER RESOURCES

    S. 1170 denies a federal reserved water right for this National 
Conservation Area. Because water was essential in the formation of the 
Snowy River Cave and continues to shape the features that give the 
Snowy River Cave its name, S. 1170 should be modified to direct the BLM 
to ensure that water resources are secured as necessary to protect the 
continuing dynamics of the cave and its features.

                               CONCLUSION

    We strongly support the protection of the Snowy River Cave system 
and the Fort Stanton ACEC. We urge the committee to expand its vision 
for this area and protect the full array of resources and lands 
encompassed in the Fort Stanton ACEC. We look forward to working with 
Senators Domenici and Bingaman and others on the Committee to protect 
this area which is so important to New Mexicans and all Americans by 
adding it to the National Landscape Conservation System as a National 
Conservation Area.
                                 ______
                                 
      Prepared Statement of Jeff Parker, Administrative Director, 
                   Northwest Youth Corps, Eugene, OR

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to submit testimony for the record in support of S. 1238, 
the Public Lands Corps Healthy Forests Restoration Act of 2005. I want 
to thank Senators Feinstein, Domenici, and Bingaman for their 
leadership in this process.
    I am the Administrative Director of the Northwest Youth Corps 
(NYC). The NYC is headquartered in Oregon but also does work in Idaho, 
Washington State, and California. I am also testifying on behalf of the 
National Association of Service and Conservation Corps (NASCC) which 
represents the corps movement in Washington and consists of more than 
100 corps, enrolling 23,000 corpsmembers in 37 states and the District 
of Columbia. I have attached detailed descriptions of the NYC and NASCC 
for the record.*
---------------------------------------------------------------------------
    * Retained in subcommittee files.
---------------------------------------------------------------------------
    Because this bill differs in certain key respects from earlier 
versions, I will summarize its key provisions. First, it authorizes the 
Interior and Agriculture Secretaries to enter into contracts or 
cooperative agreements with conservation corps to carry out appropriate 
conservation projects which are defined as ``any project for the 
conservation, restoration, construction or rehabilitation of natural, 
cultural, historic, archeological, recreational, or scenic resources.''
    Second, it establishes a priority for projects that will reduce the 
risk of wildfire to a community, municipal water supply, or other at-
risk Federal land; protect watersheds or address threats to the health 
of forests and rangeland; address the impact of insect or disease 
infestation or other damaging agents; and protect, restore, and enhance 
components of forest ecosystems to promote the recovery of threatened 
and endangered species, improve biological diversity, and enhance 
productivity and carbon sequestration.
    It also establishes two preferences. For appropriate conservation 
projects, the Secretary ``may'' give preference to a qualified corps 
that has a substantial portion of members who are economically, 
physically, or educationally disadvantaged. For priority projects, the 
Secretary ``shall, to the maximum extent practicable'' give preference 
to a qualified corps that has a substantial portion of members who are 
economically, physically, or educationally disadvantaged.
    Fourth, it gives the Secretary discretion to grant credit for time 
served in the Public Lands Corps toward future Federal hiring and to 
provide non-competitive hiring status for Corps alumni for up to 120 
days.
    Fifth, the government may not pay more than 75 percent of the cost 
of any project. The remaining 25 percent may be provided in cash or in-
kind from nonfederal sources.
    Finally, it authorizes $15 million per year, of which $10 million 
is to carry out priority projects.
    I would like to note that on July 14, 2005 the Administration 
expressed its support for H.R. 2875, identical legislation, in 
testimony before the Subcommittee on Forests and Forest Health of the 
House Resources Committee.
    Based on the Northwest Youth Corps' work and reports from my 
colleagues around the country, it is clear that corps have an important 
role to play in preventing forest fires and other natural disasters, 
providing appropriate assistance to communities threatened by such 
disasters, and helping them recover from the devastation that occurs.
    As of July 6, nine states--Alaska, Arizona, California, Colorado, 
Nevada, New Mexico, Texas, Utah, and Washington--had reported large, 
active fires. About 324 large fires have been contained this year. In 
addition to these large fires, the National Interagency Fire Center 
reported that almost 32,000 fires have consumed about three million 
acres since January 1. In 2004, some 77,534 reported fires burned 
6,790,692 acres. Federal government agencies spent $890 million to 
suppress them.
    In 2004 the National Fire News noted that ``as firefighters control 
wildland fires, another group of quiet heroes move into the area to 
start the healing. After a wildland fire, the land may need 
stabilization to prevent loss of topsoil through erosion and prevent 
the movement of dirt into rivers and streams. Land management 
specialists and volunteers jump start the renewal of plant life through 
seeding and planting with annuals, trees, and native species that help 
retain soils and fight invasive weeds. It's a long term process that 
comes alive as the wildland fires die down.''
    This is exactly the kind of work at which corps excel:
  <bullet> In 2004, the Montana Conservation Corps (MCC) completed over 
        600 acres of wildfire fuels reduction projects in partnership 
        with Yellowstone National Park, with state agencies on private 
        lands, and with local conservation districts. Its priority has 
        been to create defensible space around historic buildings in 
        the national parks and around campgrounds. At Big Hole National 
        Historic Battlefield, MCC crews thinned areas of woodlands 
        adjacent to national forest lands to protect the cultural 
        resources from catastrophic wildfires. In West Yellowstone, MCC 
        partnered with the Chamber of Commerce to remove 300 hazardous 
        trees lining the popular Rendezvous Ski Trails, site of 
        national ski races, and an important economic asset in a 
        community trying to diversify from the traditional snowmobile-
        based economy. MCC is working to sign agreements to work with 
        BAER (Burned Area Emergency Recovery) teams to complete post-
        fire emergency restoration activities including erosion 
        control, hazardous tree removal, tree planting, trail 
        maintenance, and stream restoration.
  <bullet> In 2004, NYC Corpsmembers built or maintained 448 miles of 
        trail, pruned 105 acres of conifers, performed fuel reduction 
        on 181 acres, planted 6,550 trees, and restored 28 acres of 
        wetlands.
  <bullet> In the summer of 2003, the Rocky Mountain Youth Corps 
        (Colorado) thinned almost 175 acres in Rocky Mountain National 
        Park and Medicine Bow/Routt National Forest and rehabilitated 
        another 155 acres in Rocky Mountain National Park. In June and 
        July, 2003 Lathrop State Park, it felled 664 trees, maintained 
        360 feet of fence, and eradicated weeds from 60 acres.
  <bullet> In 2003, the Utah Conservation Corps did thinning in a wild 
        land fire-urban interface zone outside of Park City that was a 
        partnership between a homeowner's association and Utah 
        Department of Forestry. In the past, it has carried out ``soil 
        stabilization'' projects in the Bridger-Teton National Forest 
        that included the rehabilitation and re-routing of trail in bum 
        areas and building drainage structures.
  <bullet> In 2003, the Youth Corps of Southern Arizona have partnered 
        with Apache-Sitgreaves National Forest, the Coronado National 
        Forest, and Chiricahua National Monument. Corpsmembers cut and 
        piled excess fuels in preparation for a bum as part of a 
        hazardous fuel reduction project. They also thinned and removed 
        trees for habitat improvement in the Apache-Sitgreaves. The 
        YCOSA worked with Ramsay Canyon, a facility of The Nature 
        Conservancy in southern Arizona to remove hazardous, flammable 
        material from buildings. Work to create defensible space was 
        conducted several weeks prior to a fire and the Corps has 
        received credit for saving the buildings. Crews have also been 
        sent to fires on BLM and USFS areas in Wyoming and Arizona.
  <bullet> The Coconino Rural Environment Corps located in Flagstaff, 
        Arizona thins hundreds of acres of federal, state, county, 
        city, and private lands every year. The Corps has created 
        multiple partnerships in local communities to mitigate the 
        hazards of catastrophic wild fires. The Partnership also 
        provided the local Native American Reservations with more than 
        400 cords of fire wood. Working with County and City Waste 
        Management, the partnership found a way to transport fire wood 
        to community members in need with little to no cost to the 
        project. The partnerships have also increased community 
        awareness to the dangers of wildfire and the risks that may be 
        associated with living in one of the most fire prone forests in 
        the world, thus creating a more fire wise community. The CREC 
        thins more than 500 acres a year and returns more than 4000 
        acres to native grasslands. Forest restoration has also been a 
        large portion of the forestry work CREC has done over the last 
        several years.
  <bullet> The Western Colorado Conservation Corps (WCCC) has done 
        access and egress in urban interface in the Black Canyon of the 
        Gunnison National Park housing area to insure safe passage for 
        emergency response workers. Corpsmembers have been trained in 
        firescaping around new suburban neighborhoods as cities spread 
        into rural areas. They help to provide both visually aesthetic 
        and fire resistant landscape around structures of value and 
        along the avenues of emergency response.
  <bullet> In 2003, the Minnesota Conservation Corps responded to 45 
        wildfires that totaled 30,656 acres. It completed 920 home and 
        property assessments (fire wise) relating to wildfire danger 
        and defensible space and made recommendations to the home 
        owners on how to make their property safer in the event of a 
        wildfire. Corpsmembers also provided about 8,720 hours in 
        indirect fire suppression activities including 5 miles of fire 
        break construction, 400 acres of timber stand improvement, and 
        5,560 acres of prescribed bums. In any given year MCC plants 
        150,000 plus trees in areas that may or may not have been 
        impacted by previous fires. MCC also completes 150 Forest 
        Inventory Analysis (FIA) plots each year for the Minnesota 
        Department of natural resources Division of Forestry. These 
        plots are then used in a variety of Forestry models including a 
        wildfire model.
  <bullet> The California Conservation Corps (CCC) is the nation's 
        oldest, largest and longest-running youth conservation corps. 
        Nearly 90,000 young men and women have worked more than 50 
        million hours to protect and enhance California's environment 
        and communities and have provided six million hours of 
        assistance with emergencies like fires, floods and earthquakes. 
        Last June the CCC laid plastic and sandbags on Delta levees to 
        prevent flooding; fought fires in Santa Barbara and Madera 
        counties and surveyed for the glassy-winged sharpshooter (a 
        major agricultural pest that has caused the loss of millions of 
        dollars to wine grape growers). At the request of the San 
        Joaquin County Office of Emergency Services and the state 
        Department of Water Resources, 15 crews placed heavy plastic 
        sheeting and sandbags to protect 13.5 miles of interior levees 
        not designed to hold flood waters. Twelve Corps sent crews to 
        fight floods. At the same time the CCC responded to the Delta 
        levees, three crews were dispatched to the Gaviota Fire in 
        Santa Barbara County. Corpsmembers also provided the California 
        Department of Forestry and Fire Protection with logistical 
        support. As crews finished up with the Gaviota Fire, the CCC 
        was called upon to respond to the Source Fire in the Sierra 
        National Forest, under the direction of the U.S. Forest 
        Service. Fresno and Pomona corpsmembers provided assistance at 
        the fire camp.
    As you can see from these examples, corps have experience working 
with federal, state, and local land management agencies. Indeed, the 
Forest Service invested $4.2 million in partnerships with Corps and 
leveraged an additional $2.4 million in match.
    S. 1238 will provide the federal government with the resources 
necessary to continue to utilize corps and cost-effectively fight 
wildfires.
    Invasive species are another large and growing threat to our public 
lands across the nation. Up to 46 percent of the plants and animals 
listed as endangered species by the federal government have been 
negatively affected by invasive species. Purple loosestrife diminishes 
waterfowl habitats, alters wetland structure and function, and chokes 
out native plants. The Asian longhorned beetle is causing the 
destruction of valuable city trees and could spread to forests. Nutria 
is devastating large portions of wetland ecosystems.
    Invasive plants are estimated to infest 100 million acres in the 
United States. Every year, they spread across three million additional 
acres, an area twice the size of Delaware. According to a Bureau of 
Land Management study (1996) up to 4,600 acres of additional Federal 
public natural areas in the Western continental United States are 
negatively affected by invasive plant species every day. One report 
indicates that the economic cost of invasive species to Americans is an 
estimated $137 billion every year.
    Corps have also been mobilized in California, Montana, Colorado, 
New Mexico, and elsewhere to fight invasive species; a growing problem 
on our public lands across the nation. For example:
  <bullet> The Rocky Mountain Youth Corps (RMYC), based in Taos and the 
        Western Colorado Conservation Corps (WCCC), based in Grand 
        Junction, Colorado, have been actively involved in tamarisk 
        removal for several years. This year and last, the WCCC has 
        partnered with the Colorado State Parks Department and the 
        state Division of Wildlife, the Audubon Society, and the 
        Tamarisk Coalition to control 28 acres of Tamarisk and Russian 
        Olive, 7 acres of Hounds Tongue, Canada Thistle and other 
        species, as well as 15 miles of Salsafy, Russian Thistle, 
        Storks Bill and other species.
  <bullet> Last August, Colorado's Rock Mountain Youth Corps based in 
        Steamboat Springs removed 1550 Tamarisk frees from the Dinosaur 
        National Monument. In August 2003, corpsmembers more than 
        10,000 square feet of Tamarisk and poisoned the stumps.
  <bullet> The Northwest Youth Corps removed noxious weeds from 1,537 
        acres.
  <bullet> The Montana Conservation Corps is partnering with the 
        National Forest Foundation, Gallatin National Forest, and 
        Gallatin/Big Sky Weed Management Area Committee to undertake an 
        extensive invasive weed mapping and removal project in the Lee 
        Metcalf Wilderness. The project will include: creating an 
        inventory (GPS/photos), hand-pulling, reseeding, biological 
        controls and spot spraying of noxious weeds by a crew of seven 
        young adults for four weeks at 12 trailheads, 24 backcountry 
        campsites and along 124 miles of trails in the northern unit of 
        the Lee Metcalf Wilderness. In 2003, in partnership with the 
        Charles M. Russell National Wildlife Refuge (USFWS), MCC 
        floated sections of the Missouri Breaks Wild and Scenic River 
        to inventory and map patches of invasive Leafy Spurge using 
        hand-held GPS units and data loggers. The crews collected 
        thousands of Flea Beetles, a tested and successful biological 
        control method for leafy spurge, and returned to the surveyed 
        sites to release the flea beetles in the most sensitive areas.
    While targeting fires and invasive species, S. 1238 provides 
disadvantaged youth with an opportunity to help themselves by helping 
their communities by supporting programs like the Southwest Youth 
Corps' (Colorado) Fire Careers Training Program. The program which 
started in September 2004 has two goals. First, it trains young people 
18-25 for careers in the wildland fire management industry. Second, it 
helps to reduce the threat of fires by providing wildfire prevention 
and mitigation services. In addition to training, participants 
completed more than 7,000 hours of significant fire prevention projects 
in Utah, Colorado, and New Mexico.
    In a recent class nine young adults completed the program which 
includes S212 chainsaw training, S130/190 introduction basic wildland 
firefighting, and between 300 and 900 hours of on-the-job training. All 
nine obtained jobs at the conclusion of the program. Six of the 
participants obtained jobs directly with federal agencies, local 
mitigation companies, and other youth corps that is directly related to 
their experience and training.
    According to Allen Farnsworth, the BLM Fire Mitigation and 
Education Specialist for the San Juan Public Lands Center in Durango, 
Colorado ``. . . participants got some new life skills that will help 
them get decent paying jobs, the agencies got to assist one of our non-
profit partners by providing training, and the wildland fire industry 
has a trained and energetic employee pool to pick from. It doesn't get 
much better than that.''
    A current Rocky Mountain Youth Corps of Colorado (RMYC) project 
with the Department of Wildlife in Yampa River State Park in Hot 
Sulphur Springs provided chainsaw training for 20 conservation corps 
mentors who were then placed throughout RMYC crews and utilized for 
further fuels reduction projects. Corpsmembers thin forests comprised 
mainly of cottonwoods.
    Service and conservation Corps are descended from the Civilian 
Conservation Corps (CCC) of the Depression era, and are established 
pathways to re-integrate vulnerable young people into society. They 
engage primarily young people ages 16-25 in service, training, and 
educational activities. The corps model places young people under the 
leadership of adult leaders who serve as mentors and role models.
    In return for their efforts to restore and strengthen communities, 
corpsmembers receive: a stipend, classroom education to improve basic 
competencies and secure credentials, technical skills training, and 
supportive services. Young men and women learn to value their personal 
contribution, learn the importance of teamwork and experience the 
recognition that comes from making a positive investment in their 
community.
    Approximately 60 percent of NASCC corpsmembers are young people of 
color, half enroll without a high school diploma or GED and 55 percent 
come from homes where the annual income is less than $15,000. A 
rigorous, random assignment evaluation conducted by Abt Associates/
Brandeis University reported that significant employment and earnings 
gains accrue to young people who join a corps and that they are 
significantly less likely to engage in anti-social behavior. Corps also 
generate a positive return on investment.
    S. 1238 provides needed additional resources to meet the challenges 
posed by forest fires, invasive species, and other threats to our 
ecosystem. Enactment of this bill and the funding that it authorizes 
will enable us to do more.
    Thank you for the opportunity to submit testimony on this important 
piece of legislation.


</pre></body></html>
